Case: 20-4019

Document: 8-2

Filed: 02/17/2021

Page: 1

No. 20-4019

FILED

UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT
BRUCE L. FARMER,
Petitioner-Appellant,
v.

KEITH FOLEY, Warden,
Respondent-Appellee.

)
)
)
)
)
)
)
)
)

Feb 17, 2021
DEBORAH S. HUNT, Clerk

ORDER

Before: BUSH, Circuit Judge.
Bruce L. Farmer, an Ohio prisoner proceeding pro se, appeals a district court judgment
denying his petition for a writ of habeas corpus filed pursuant to 28 U.S.C. § 2254. Farmer requests
a certificate of appealability. See 28 U.S.C. § 2253(c); Fed. R. App. P. 22(b). He also requests
leave to proceed in forma pauperis.
In 2014, a jury found Farmer guilty of aggravated robbery, assault on a peace officer,
breaking and entering, disrupting public service, and resisting arrest. He was sentenced to serve a
total of fifteen years—eleven years for robbery, eighteen months for assault, twelve months for
breaking and entering, and eighteen months for disrupting public service, to run consecutively,
and six months for resisting arrest, to run concurrently to the sentences imposed for the first four
convictions. The trial court also terminated Farmer’s post-release control and imposed a two-year
consecutive sentence, increasing his total sentence to seventeen years in prison. The Ohio Court
of Appeals vacated both the jury’s finding that the victim of the assault was a peace officer as
defined by state law and the sentence imposed for that conviction, remanded for resentencing on
the assault conviction, vacated the two-year post-release control sentence, and affirmed Farmer’s
convictions and sentences for robbery of a law enforcement officer, disrupting public service, and
resisting arrest; Farmer did not appeal the breaking-and-entering conviction and sentence. State
Exhibit A

Case: 20-4019

Document: 8-2

Filed: 02/17/2021

Page: 3

No. 20-4019
-3In 2017, Farmer filed this § 2254 habeas corpus petition, claiming that: (1) insufficient
evidence was presented to support his convictions “committed against a law enforcement officer”
because the victim was not a law enforcement officer; (2) “the State withheld or failed to provide
video evidence from the body camera worn by the alleged victim or provide proper evaluation
thereof when said evidence was critical to his defense”; and (3) his sentences were void,
unconstitutional, and violate Hand because his “juvenile record was used to extend his sentence
beyond the statutory minimums and to run his sentences consecutively.” On the recommendation
of a magistrate judge and over Farmer’s objections, the district court denied Farmer’s habeas
corpus petition and denied .a certificate of appealability. Farmer’s motion to reconsider or to amend
the judgment was also denied.
A certificate of appealability may issue only if a petitioner makes “a substantial showing
of the denial of a constitutional right.” 28 U.S.C. § 2253(c)(2). “A petitioner satisfies this standard
by demonstrating that jurists of reason could disagree with the district court’s resolution of his
constitutional claims or that jurists could conclude the issues presented are adequate to deserve
encouragement to proceed further.” Miller-El v. Cockrell, 537 U.S. 322, 327 (2003). When a
habeas corpus petition is denied on procedural grounds, the petitioner must show “that jurists of
reason would find it debatable whether the petition states a valid claim of the denial of a
constitutional right and that jurists of reason would find it debatable whether the district court was
correct in its procedural ruling.” Slack v. McDaniel, 529 U.S. 473, 484 (2000).
In his first claim, Farmer alleged that insufficient evidence was presented to support his
robbery, disrupting-public-service, and resisting-arrest convictions because the victim was not a
law enforcement officer, which is an element of each of those crimes. Specifically, Farmer argued
that the victim’s employment as a railroad police officer did not meet Ohio’s statutory definition
of a “law enforcement officer.”
The Ohio Court of Appeals reviewed this claim on direct appeal. Farmer, 48 N.E.3d
at 1050-52. The Court of Appeals set forth the proper standard of review for an insufficientevidence .claim, discussed the.definition of “law enforcement.officer” under Ohio law, and

Case: 20-4019

Document: 8-2

Filed: 02/17/2021

Page: 5

No. 20-4019
-5r

that it was inconsistent for the state appellate court to find that the victim was a “law enforcement
officer” but not a “peace officer” because Ohio law defines those terms differently. The district
court emphasized that the state appellate court’s decisions on issues involving state law are binding
on a federal habeas corpus court.

.

,

Reasonable jurists would not debate the district court’s rejection of Farmer’s first ground
for relief. See Miller-El, 537 U.S. at 327. The Ohio Court of Appeals analyzed Farmer’s
sufficiency-of-the-evidence claim in accordance with clearly established federal law, and its
determination of the facts was not unreasonable. Farmer disputes the state appellate court’s
determination that the victim met the definition of “law enforcement officer” under Ohio law. But
on habeas corpus review, a state court’s interpretation of its own law is binding on a federal court.
Bradshaw, 546 U.S. at 76.
In his second claim, Farmer alleged that the State withheld evidence from the defense. His
third claim challenged his sentence based on Hand. The district court concluded that these claims
were procedurally defaulted. The district court found that Farmer’s second claim was procedurally
defaulted because the state post-conviction court found that Ohio’s res judicata rule prevented a
merits review of his second claim on post-conviction review, Ohio’s res judicata rule is an adequate
and independent state law ground, and Farmer could not show cause and prejudice to excuse the
default because he could have raised that claim on direct appeal. The district court found that
Farmer’s third claim was procedurally defaulted because he did not file a praecipe in accordance
with appellate court rules when appealing the denial of his third claim, which resulted in the
dismissal of his appeal from the denial of his motion for resentencing; that the praecipe
requirement is an adequate and independent state law ground; and that he could not show cause
and prejudice to excuse the default. The district court concluded that Farmer did not establish that
a fundamental miscarriage ofjustice would occur if his second and third claims were not reviewed.
Reasonable jurists would not debate the district court’s rejection of Farmer’s second and
third claims.

Farmer presented his second claim on post-conviction review, and the post­

conviction court refused to review it, concluding that it was barred by Ohio’s res judicata rule

Case: 20-4019

Document: 8-2

Filed: 02/17/2021

Page: 7

No. 20-4019
-7some objective factor external to the defense” prevented the petitioner’s compliance with a state
procedural rule. Murray v. Carrier, All U.S. 478, 488 (1986). Farmer did not establish cause to
excuse his procedural default of these claims. Moreover, Farmer did not demonstrate that the
\

failure to consider his procedurally defaulted claims would result in a fundamental miscarriage of
justice. See McCleskey v. Zant, 499 U.S. 467, 494-95 (1991); Murray, All U.S. at 496.
, ^

Accordingly, the application for a certificate of appealability is DENIED, and the motion

to proceed in forma pauperis is DENIED as moot.
ENTERED BY ORDER OF THE COURT

Deborah S. Hunt, Clerk

i
i

i;

Case: l:17-cv-00860-SL Doc #: 23 Filed: 08/06/19 1 of 23. PagelD #: 1207
;

j

UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF OHIO
EASTERN DIVISION
;

BRUCE L. FARMER,
PETITIONER,
v.
CHARMAINE BRACY, Warden,
RESPONDENT.

)
)
)

CASE NO. l:17-CV-00860

)

JUDGE SARA LIOI

)
)
)
)
)
)

*

MEMORANDUM OPINION

i
>
i

)
i

i

Before the Court is the report and recommendation (Doc. No. 20 [“R&R”]) of Magistrate
Judge Thomas M. Parker, recommending that petitioner Bruce Farmer’s (“Farmer”) petition for a
writ of habeas corpus pursuant to 28 U.S.C. § 2254 (Doc. No. 1 [“Pet.”]) be denied. Farmer filed
timely objections to the R&R. (Doc. No. 22 [“Obj.”].) Respondent filed neither a response to
Farmer’s objections, nor her own objections. For the reasons discussed herein, Farmer’s objections

j

i
1

to the R&R are OVERRULED and the R&R is ACCEPTED.

■i

I. BACKGROUND
A.

1

Facts Underlying Farmer’s Prosecution and Conviction

i
i

The Ohio Court of Appeals recited the facts underlying Farmer’s prosecution and conviction:
HI 3} The offenses arose from an incident that occurred on October 21,2013. James
Kirk, an officer with the Norfolk Southern Railroad Police Department, testified that
he was patrolling in his unmarked police vehicle along a stretch of railroad track in
Cleveland when he saw three individuals, one of whom was [Farmer], trespassing.
He activated his lights, stopped the individuals, and informed them they were
trespassing. Officer Kirk was wearing a police uniform, including his badge, and was
carrying mace and a firearm.

l
$
' $

j
:
?
?

\
;*

a

Exhibit 8

Case: l:17-cv-0Q860-SL Doc#: 23 Filed: 08/06/19 2 of 23. PagelD#:1208

(H 4} When Officer Kirk questioned [Farmer] as to the spelling of the name he
provided, [Farmer] became nervous, turned, and ran. Officer Kirk chased [Farmer],
caught him, handcuffed him, and brought him back to the police vehicle.
(1f 5} According to the testimony of Officer Kirk, as he attempted to use his cell
phone to call for assistance, [Farmer] pulled one of his hands loose from the
handcuffs and swung at the officer. Officer Kirk was able to handcuff [Farmer]
again, but the struggle continued. During the struggle, [Farmer] hit the officer,
attempted to grab the officer’s gun, sprayed the officer with mace, and broke the
officer’s cell phone during the officer’s attempt to call for backup.
(116} Officer Kirk began yelling for someone to call 911. A neighbor from the area
made the call. The neighbor testified that she saw the officer trying to hold the
suspect on the ground and that the suspect kept fighting. She stated the officer was
asking for help and asking the suspect to stop. Other bystanders arrived at the scene,
and the two individuals who were with [Farmer] on the tracks also returned. One of
those individuals took an aggressive stance toward the officer, at which point the
bystanders intervened. Eventually, the Cleveland police arrived.
{1f 7} Officer Kirk testified that he is “a certified police officer under the State of
Ohio, and * * * commissioned through the State of Ohio with the Norfolk Southern
Railroad Police Department.” He further testified to his training, qualifications, and
duties as a law enforcement officer.
(If 8} [Farmer] testified that after being stopped by the officer for walking on the
tracks, he ran and was caught. According to [Farmer], after he was taken back to the
police vehicle, the officer pushed [Farmer] to the ground, pinned [Farmer] in a choke
hold, and maced [Farmer] and himself. [Farmer] denied reaching for the officer’s
weapon. [Farmer’ s] former girlfriend, who was one of the individuals with him on
the tracks, testified that she observed the officer place [Farmer] in a choke hold and
that when the officer went to spray [Farmer] with mace, he essentially sprayed
himself.
State v. Farmer, 48 N.E.3d 1048, 1049—50 (Ohio Ct. App. 2015). In a habeas corpus proceeding,
factual determinations made by state courts are presumed correct unless the petitioner rebuts them by
clear and convincing evidence. 28 U.S.C. § 2254(e)(1); see also Franklin v. Bradshaw, 695 F.3d
439, 447 (6th Cir. 2012); Montgomery v. Bobby, 654 F.3d 668, 701 (6th Cir. 2011).

2
1

Case: l:17-cv-00860-SL Doc#: 23 Filed: 08/06/19 3 of 23. PagelD#:1209

B.

State Trial Court Convictions

A grand jury issued a five-count indictment against Farmer on October 29, 2013, charging
him with: Count One—Aggravated Robbery, in violation of Ohio Rev. Code. §2911.01(B)(1), a
first-degree felony (Count One also had a three-year firearm specification under Ohio Rev. Code §
2941.145(A) and a one-year firearm specification under Ohio Rev. Code § 2941.141(A)); Count
Two—Assault on a peace officer, in violation of Ohio Rev. Code § 2903.13(A), a fourth-degree
felony; Count Three—Breaking and Entering in violation of Ohio Rev. Code § 2911.13(B), a fifthdegree felony; Count Four—Disrupting Public Service, in violation of Ohio Rev. Code §
2909.04(A)(3), a fourth-degree felony; and Count Five—Resisting Arrest, in violation of Ohio Rev.

(

Code § 2921.33(B), a first-degree misdemeanor. (Doc. No. 5-1, Ex. 1, at 55.') Farmer pleaded not
. guilty to the charges and proceeded to jury trial commencing on November 17,2014. (Doc. No. 5-1,
Ex. 3, at 59.) On November 21, 2014, the jury found Farmer guilty on each count; the trial judge
dismissed the firearm specifications after the State of Ohio withdrew the specifications prior to the
commencement of trial. (Doc. No. 5-1, Ex. 4, at 60.)
The trial court conducted a sentencing hearing on December 29,2014. Farmer was ordered to
serve a prison term of eleven years on the Count One Aggravated Robbery charge, eighteen months
on the Count Two Assault on a Peace Officer charge, twelve months on the Count Three Breaking
and Entering charge, eighteen months on the Count Four Disrupting Public Service charge, and six
months on the Count Five Resisting Arrest Charge. The prison terms on Counts One, Two, Three,
and Four were ordered to be served consecutively; the prison term on Count Five was to be served
concurrently to the other counts. In addition, the trial court imposed a two-year consecutive prison

All page number references are to the page identification number generated by the Court’s electronic docketing system.

3

t
!
I
i

Case: l:17-cv-00860-SL Doc#: 23 Filed: 08/06/19 4of 23. PagelD#:1210

term pursuant to Ohio Rev. Code § 2929.141 as a sanction for Fanner’s violation of the terms ofpre­
existing post-release control. Farmer’s aggregate sentence was seventeen years. (Doc. No. 5-1, Ex. 5,
at 61.)
C.

Direct Appeal

Farmer, represented by new counsel, filed a timely notice of appeal to the Ohio Court of
Appeals on January 28,2015. (Doc. No. 5-1, Ex. 6., at 63.) In his direct appeal, Farmer asserted four
assignments of error:
1. It was error for the trial court to overrule Mr. Farmer’s Crim. R. 29 Motion for
Judgment of Acquittal as to [Counts] 1,4 and 5 made at the close of all the evidence
as there was no evidence that the alleged victim of the acts charged in those counts
was a “law enforcement officer” as alleged in the indictment and as the term is
defined in the Revised Code.
2. Mr. Farmer was denied his constitutional right to a fair trial and due process when
he was found guilty on Counts 1, 4, and 5 when the evidence on those counts was
insufficient as it did not show that the alleged victim of the acts charged in those
counts was a “law enforcement officer” as alleged in the indictment and as the term
is defined in the Revised Code.
3. The jury verdict finding Mr. Farmer guilty as charged in Count Two of the
indictment should be vacated because the evidence did not show that James Kirk was
a peace officer as the term was defined for them.
4. The trial court erred when it imposed an additional and consecutive two-year
sentence for violation of post-release control....
(Doc. No. 5-1, Ex. 7, at 71-72.) In aNovember 12, 2015 journal entry and opinion, the Ohio Court
of Appeals: (1) vacated the jury’s finding that the victim was a peace officer for purposes of the
Count Two Assault charge, vacated the trial court’s sentence on Count Two and remanded the case
for resentencing on Count Two only; (2) vacated the sentence imposed for the post-release control
violation, thereby sustaining Farmer’s fourth assignment of error; and (3) overruled Farmer’s first
and second assignments of error, thereby affirming his convictions on Counts One, Three, and Four.
4

i

Case: l:17-cv-00860-SL Doc #: 23 Filed: 08/06/19 5 of 23. PagelD #: 1211

Farmer had not appealed his Count Five conviction. Farmer’s case was remanded for further
proceedings. (Doc. No. 5-1, Ex. 9, at 107, 116-117.)
Farmer filed a timely notice of appeal and memorandum in support ofjurisdiction in the Ohio
Supreme Court on December 23,2015. (Doc. No. 5-1, Exs. 10,11, at 118,120.) Farmer raised one
proposition of law:
Because under the Rule of Lenity and the doctrine expressio unius est exclusio
alterius, R.C. 2901.01 (A)( 11) provide the exclusive definition of “Law Enforcement
Officer” for the offenses set forth in R.C. Chapter 29, a person not fitting any
definition in that section is not a law enforcement officer and a conviction of an
offense against such person as a law enforcement officer is based on insufficient
evidence and must be vacated.
(Doc. No. 5-1, Ex. 11, at 121.) The Ohio Supreme Court declined jurisdiction on April 20, 2016.
(Doc. No. 5-1, Ex. 13, at 142.) Farmer did not seek further review in the United States Supreme '
Court. (Pet. at 3.)
D.

Resentencing

Pursuant to the Ohio Court of Appeals mandate, Farmer returned to the trial court for
resentencing on January 24, 2017. The trial court imposed a six-month prison term on Count Two
and ordered that it be served concurrently with the sentence previously imposed on the Count One
Aggravated Robbery charge. With the modification of the Count Two sentence and the vacatur of
the sentence on the post-release control violation, Farmer’s aggregate sentence became thirteen years
and six months. (Doc. No. 5-1, Ex. 14, at 143.) Farmer did not appeal the resentencing decision.
E.

Petition to Vacate or Set Aside Judgment of Conviction or Sentence

While Farmer’s direct appeal was pending, he filed a pro se Petition to Vacate or Set Aside
Judgment of Conviction or Sentence on October 19,2015. (Doc. No. 5-1, Ex. 15, at 144.) Farmer’s
petition raised a single claim: “[H]e was denied due process when the State withheld or failed to

3

i

5
;

Case: l:17-cv-00860-SL Doc#: 23 Filed: 08/06/19 6 of 23. PagelD#:1212

provide video evidence from the body camera worn by the alleged victim.” (Id. at 145.) By a journal
entry dated April 13, 2016, the trial court denied Farmer’s petition. (Doc. No. 5-1, Ex. 17, at 165.)
The trial court ruled that the arguments Farmer presented in his petition could have been raised on
his direct appeal; and it concluded that the claims were barred by the doctrine of res judicata. (Id.)
On May 6,2016, Farmer filed a pro se notice of appeal from the trial court’s April 13,2016
journal entry.
Despite its April 13,2016 journal entry, the trial court filed another journal entry on June 7,
2016, also denying Farmer’s Motion to Vacate or Set Aside Judgment of Conviction or Sentence.
(Doc. No. 5-1, Ex. . 18, at 166.) The June 7 journal entry—as with the April 13 entry-—reflected the
reasoning of the court, but expressed different grounds for denying the petition than had been
expressed in the earlier entry. Farmer did not file a notice of appeal from the June 7 ruling within the
thirty-day deadline to appeal. Instead, Farmer appears to have tried to deal with this pair of orders by
filing, pro se, a Motion for an Order for a Final Appealable Order on July 19,2016. (Doc. No. 5-1,
Ex. 21, at 177.)
Farmer argued that under Ohio law two judgment entries for the same decision cannot
constitute a final appealable order. The State filed a brief in opposition on July 22,2016. (Doc. No.
5 -1, Ex. 22, at 181.) The State—making no mention of the April 13 j oumal entry from which Farmer
had originally appealed—argued that the June 7 trial court entry was sufficient to constitute a final
appealable order. (Id. at 182.) The trial court denied the motion in an entry dated July 25, 2016,
mirroring the State’s argument and stating: “The court’s 6/7/16 journal entry is sufficient to
constitute a final appealable order.” (Doc. No. 5-1, Ex. 23, at 185.)

6

Case: l:17-cv-00860-SL Doc#: 23 Filed: 08/06/19 7 of 23. PagelD#:1213

Although Farmer had filed a praecipe and a docketing statement with his notice of appeal
from the April 13 ruling on his petition to vacate, he never filed an appellate brief, and the Ohio
Court of Appeals dismissed his appeal sua sponte on August 1, 2016, “for failure to file a brief.”
App. R. 18(C). (Doc. No. 5-1, Ex. 20, at 176.)
On August 12,2016, Farmer filed a notice of appeal from the trial court’s June 7,2016 order
denying his petition to vacate or set aside judgment of conviction or sentence, citing the trial court’s
July 25,2016 entry as having provided “affirmation” that the June 7 order was the final appealable
order concerning the petition. (Doc No. 5-1, Ex. 24, at 186.) Fanner claimed his appeal was filed
timely relative to the July 25 trial court order. (Id.) On September 6, 2016, the court of appeals
dismissed Farmer’s appeal sua sponte for want of a final appealable order. (Doc. No. 5-1, Ex. 25, at
198.)
Farmer filed a second motion for a final appealable order on October 7, 2016, reciting the
same facts he asserted in his initial motion for a final appealable order but adding the fact of his most
recent attempt to appeal and of the appellate court’s sua sponte dismissal thereof. (Doc. No. 5-1, Ex.
26, at 199.) On October 17,2016, the State filed a brief in opposition, again asserting, among other
things, that the trial court’s June 7, 2016 order denying Farmer’s petition to vacate was a final
appealable order from which Farmer failed to appeal. (Doc. No. 5-1, Ex. 27, at 202.) On October 31,
2016, the trial court issued a journal entry denying Farmer’s second motion for a final appealable
order, stating: “The defendant received a final appealable order on 6/7/16 when this court denied his
motion to vacate/set aside conviction. He should have appealed from that order. Unfortunately, the
time to file that appeal has long since passed.” (Doc. No. 5-1, Ex. 28, at 206.) As with the State’s

7

Case: l:17-cv-00860-SL Doc #: 23 Filed: 08/06/19 8 of 23. PagelD#:1214
s'

filings, the trial court’s entry made no mention of its original, April 13, 2016 entry denying the
petition to vacate or Farmer’s appeal therefrom.
F.

Motion for Resentencing

On January 5,2017, Farmer filed a pro se motion for resentencing for “the offenses for which
he has been convicted in the instant case.” (Doc. No. 5-1, Ex. 36, at 244.) Farmer contended the trial
court improperly relied upon his juvenile criminal history when it imposed consecutive sentences in
violation of the principles announced in State v. Hand, 840 N.E.2d 151 (Ohio 2006). Farmer also
argued his sentences were improperly determined based on the trial court’s erroneous conclusion that
he was on post-release control at the time he committed the offenses charged in this case. As noted,
Farmer was in the trial court on January 24,2017, and resentenced pursuant to the court of appeals’
mandate and remand. By a journal entry filed on January 25, 2017 (the day after Farmer was
resentenced), the trial court denied Farmer’s motion for resentencing without discussion. (Doc. No.
5-1, Ex. 37, at 248.)
On August 11, 2017, Farmer filed a pro se motion in the trial court requesting that he be
properly served with the January 25, 2017 order, contending he had never been served properly.
(Doc. No. 15-1, Ex. 38, at 354.)The trial court granted the motion on August 17, 2017. (Doc. No.
15-1, Ex. Ex. 39, at 361.) On September 19, 2017, Farmer filed a notice of appeal from the trial
court’s January 25,2017 order dismissing his post-conviction motion for resentencing. (Doc. No. 151, Ex. 40, at 362.)
The Ohio Court of Appeals dismissed Farmer’s appeal sua sponte on September 27, 2017,
“for failure to file a praecipe in accordance with Local App: R. 9(B).” (Doc. No. 15-1, Ex. 41, at
367.) Farmer did not appeal that ruling to the Supreme Court of Ohio.
8

i

Case: l:17-cv-00860-SL Doc#: 23 Filed: 08/06/19 9 of 23. PagelD#:1215

Instead, on October 13, 2017—in an apparent attempt to overcome his failure to file a
praecipe—Farmer filed a new notice of appeal (complete with praecipe and docketing statement)
concerning the January 25,2017 order denying his motion for resentencing. Also, in connection with
his new appeal, on October 13, 2017, Farmer filed a motion for leave to file a delayed appeal,
pursuant to Ohio Appellate Rule 5. (Doc. No. 15-1, Ex. 43, at 382.) Six days later, on October 19,
2017, the Ohio Court of Appeals filed two journal entries, one denied Farmer’s motion to file a
delayed appeal and the other dismissed the appeal sua sponte in light of the delayed appeal denial.
(Doc. No. 15-1, Exs. 44, 45, at 385, 386.)
On November 3, 2017, Farmer filed an application for reconsideration of the denial of
delayed appeal and the dismissal of the appeal, purportedly pursuant to Ohio Appellate Rule 26
(Doc. No. 15-1, Ex. 46, at 387.) Four days later, on November 7, 2017, the Ohio Court Appeals
issued ajoumal entry denying the motion for reconsideration. (Doc. No. 15-1, Ex. 47, at 391.)
Farmer filed a notice of appeal to the Ohio Supreme Court on December 11, 2017,
concerning the disposition of his most recent appeal. (Doc. No. 15-1, Ex. 48, at 392.) Farmer’s
memorandum in support ofjurisdiction asserted two propositions of law:
First Proposition of Law: Is an appellant denied due process of law when he is
denied an appeal for an inadvertent unneeded and inconsequential omission of a
praecipe?
Second Proposition of Law: Is an appellant denied due process of law under the
Ohio and U.S. Constitutions when the trial court utilized illegal and improper
information when formulating appellant’s sentence per this court’s ruling in State v.
Hand,\A9 Ohio St. 3d 947?

:

(Doc. No. 15-1, Ex. 49, at 395.) The Ohio Supreme Court declined jurisdiction by a journal entry
filed on April 25, 2018. (Doc. No. 15-1, Ex. 51, at 407.) Farmer did not seek further review in the
United States Supreme Court.
9

3

Case: l:17-cv-00860-SL Doc #: 23 Filed: 08/06/19 10 of 23. PagelD #: 1216

G.

Motion to Vacate a Void Judgment

Earlier, on April 10,2017, Farmer—ostensibly unaware of the trial court’s January 25,2017
ruling on his motion for resentencing—filed a post-conviction motion to vacate the original
judgment of conviction and sentence based on his contention that the trial court impermissibly used
his juvenile record to enhance his sentence, in violation of the Ohio Supreme Court decision in State
v. Hand, 840 N.E.2d 151 (Ohio 2006) (essentially the same argument made in his motion for
resentencing). (Doc. No. 5-1, Ex. 29, at 207.) The State filed a brief in opposition on April 18,2017,
arguing that Farmer’s interpretation of State v. Hand lacked merit and that res judicata principles
prevented Farmer from relitigating the same issue decided in the disposition of his motion for
resentencing. (Doc. No. 5-1, Ex. 30, at 215-16.) The trial court denied the motion to vacate by a
journal entry filed April 24, 2017. (Doc. No. 5-1, Ex. 31, at 219.)
On May 18, 2017, Farmer filed a notice of appeal concerning the April 24, 2017 order
denying his motion to vacate. (Doc. No. 5-1, Ex. 32, at 220.) Farmer’s appellate brief raised a single
assignment of error: “The trial court erred to appellant’s prejudice when [it] denied his

1
$

postconviction relief predicated on the constitutional violation recently made applicable to Ohio

]

?

defendants in State v. Hand, 2016-0hio-5504.” (Doc. No. 5-1, Ex. 33, at 229.) The State moved to
dismiss the appeal in a filing dated July 20, 2017, arguing that Farmer’s failure to perfect a timely
appeal of the trial court’s January 25, 2017 denial of Farmer’s motion for resentencing—an order

i

from which Farmer did not appeal—barred the appeal under resjudicata principles. (Doc. No. 5-1,
:

Ex. 34, at 237.) On July 25, 2017 the Ohio Court of Appeals granted the State’s motion to dismiss
Farmer’s appeal, adopting the State’s resjudicata argument. (Doc. No. 5-1, Ex. 35, at 243.) Farmer

'

did not appeal this decision to the Supreme Court of Ohio.
10

]

Case: l:17-cv-00860-SL Doc#: 23 Filed: 08/06/19 11 of 23. PagelD#:1217

G.

Federal Habeas Corpus Petition

Farmer filed his pro se petition for writ of habeas corpus in this court on April 21, 2017.
Farmer now raises three grounds for relief:
GROUND ONE: Petitioner was convicted for offenses committed against a law
enforcement officer without sufficient evidence to support said convictions as the
alleged victim’s employment did not render him a law enforcement officer.
GROUND TWO: Petitioner was denied due process of the law under [the]
Fourteenth Amendment to the U.S. Constitution when the State withheld or failed to
provide video evidence from the body camera worn by the alleged victim or provide
proper evaluation thereof when said evidence was critical to his defense.
GROUND THREE: Petitioner’s sentence was void due to constitutional violations
as applied to the State of Ohio through the Ohio Supreme Court’s decision in State v.
Hand, 2016-0hio-5504; 2016 Ohio LEXIS 2106, where the use of [petitioner’s
juvenile record was used to extend his sentence beyond statutory minimums and to
run his sentences consecutively.
(Pet. at 4, 5, 7.) Because Farmer still had state court proceedings ongoing at the time he filed his
habeas petition, respondent moved to dismiss the petition on September 26, 2017, because it

r

contained both exhausted and unexhausted claims for relief. (Doc. No. 5.) Farmer moved to have the
matter stayed and held in abeyance so that he could complete his state court litigation. (Doc. No. 6.)
Farmer filed a second motion for stay and abeyance on January 16,2018. (Doc. No. 8.) On August 6,
i

2018, this Court issued a memorandum opinion overruling all pending motions and referring the

5

petition back to the magistrate judge for an R&R on all grounds for relief. (Doc. No. 12.)
Respondent filed a return of writ and a supplement to the state court record on October 5, 2018.
;

(Doc. No. 15.) Farmer filed his traverse on December 10, 2018. (Doc. No 19.)
On February 12,2019, the magistrate judge filed a R&R recommending that Ground One be
dismissed for lack of merit, that Ground Two and Ground Three be dismissed as procedurally

'!
!
\
;

defaulted, and that Farmer’s petition thus be denied. Farmer filed timely objections. Respondent
11
-!
<

Case: l:17-cv-00860-SL Doc #: 23 Filed: 08/06/19 12 of 23. PagelD #: 1218

filed neither a response to Farmer’s objections nor her own objections. This matter is now ripe for
the Court’s review.
II. STANDARD OF REVIEW
When a party timely objects to a magistrate judge’s report and recommendation on a
dispositive matter, the district court must conduct a de novo review of those portions of the report
and recommendation to which aproper objection is made. 28 U.S.C. § 636(b)(1)(C) (“A judge ofthe
court shall make a de novo determination of those portions of the report or specified proposed
findings or recommendations to which objection is made.”); Powell v. United States, 37 F.3d 1499
(Table), 1994 WL 532926, at *1 (6th Cir. Sept. 30, 1994) (“Any report and recommendation by a
magistrate judge that is dispositive of a claim or defense of a party shall be subject to denovo review
by the district court in light of specific objections filed by any party.”). After review, the district
judge “must consider timely obj ections and modify or set aside any part of the order that is clearly
erroneous or is contrary to law.” Fed. R. Civ. P. 72(a).
In conducting its de novo review in a habeas context, this Court must be mindful of the
Antiterrorism and Effective Death Penalty Act of 1996, Pub. L. No. 104-132, 110 Stat. 1214
(“AEDPA”), which provides:
An application for a writ of habeas corpus on behalf of a person in custody
pursuant to the judgment of a State court shall not be granted with respect to any
claim that was adjudicated on the merits in State court proceedings unless the
adjudication of the claim(1) resulted in a decision that was contrary to, or involved an
unreasonable application of, clearly established Federal law, as determined
by the Supreme Court of the United States; or
(2) resulted in a decision that was based on an unreasonable
determination of the facts in light of the evidence presented in the State court
proceeding.
12

Case: i:17-cv-00860-SL Doc#: 23 Filed: 08/06/19 13 of 23. PagelD#:1219

28 U.S.C. § 2254(d). “Section 2254(d) reflects the view that habeas corpus is a ‘guard against
extreme malfunctions in the state criminal justice systems,’ not a substitute for ordinary error
correction through appeal.” Harrington v. Richter, 562 U.S. 86,102-03,131 S. Ct. 770,178 L. Ed.
2d 624 (2011) (quoting Jackson v. Virginia, 443 U.S. 307,332 n.5, 99 S. Ct. 2781, 61 L. Ed. 2d 560
(1979) (Stevens, J., concurring in judgment)).
m. DISCUSSION
Farmer filed objections to the R&R as it pertains to all three issues raised in his writ of
habeas corpus petition.
A.

Ground One: Sufficiency of the Evidence

In his first ground for relief, Farmer contends that he was convicted for offenses committed

!

against a law enforcement officer without sufficient evidence to support said convictions because his
alleged victim’s employment did not render the victim a law enforcement officer. Farmer objects to
the magistrate judge’s finding that Farmer’s guilty verdict was supported by sufficient evidence.
Specifically, Farmer contends that the magistrate judge applied the wrong standard in determining
that Farmer’s claim of insufficient evidence lacked merit. (Obj. at 1188.) Further, Farmer contends

[

)
■

that the magistrate judge was incorrect to say that the federal court lacks the power to reach its own
conclusion about what the term “law enforcement officer” means under Ohio law. (Id. at 1190.)

:
:

Evidence is sufficient to sustain a guilty verdict if “after viewing the evidence in the light
most favorable to the prosecution, any rational trier of fact could have found the essential elements

i

of the crime beyond a reasonable doubt.” Davis v. Lafler, 658 F.3d 525, 531 (6th Cir. 2011) .

l

(quotation marks omitted) (quoting Jackson v. Virginia, 443 U.S. 307,319, 99 S. Ct. 2781,61 L. Ed. ■
2d 560 (1979)). This standard “gives full play to the responsibility of the trier of fact fairly to resolve
13

i
,i

i
5

Case: l:17-cv-00860-SL Doc #: 23 Filed: 08/06/19 14 of 23. PagelD #: 1220

conflicts in the testimony, to weigh the evidence, and to draw reasonable inferences from basic facts
to ultimate facts.” Id. (quotation marks omitted) (quoting Jackson, 443 U.S. at 319). Consistent with
the deference given to the trier of fact’s resolution of conflicts in evidence, “a federal habeas corpus
court faced with a record of historical facts that supports conflicting inferences must presume—even
if it does not affirmatively appear in the record—that the trier of fact resolved any such conflicts in
favor of the prosecution, and must defer to that resolution.” Jackson, 443 U.S. at 326. “[T]he
Jackson inquiry does not focus on whether the trier of fact made the correct guilt or innocence
determination, but rather whether it made a rational decision to convict or acquit.” Herrera v.
Collins, 506 U.S. 390, 402, 113 S. Ct. 853, 122 L. Ed. 2d 203 (1993).
Because both Jackson and AEDPA apply to a petitioner ’ s evidence sufficiency claim, federal
habeas review requires deference at two levels. “‘First, deference should be given to the trier-offact’s verdict, as contemplated by Jackson; second, deference should be given to the [state court’s]
consideration of the trier-of-fact’s verdict, as dictated by AEDPA.’” Davis, 658 F.3dat 531 (quoting
Tucker v. Palmer, 541 F.3d 652, 656 (6th Cir. 2008)). As the Sixth Circuit has explained:
When reviewing whether the state court’s determination was “objectively
unreasonable,” this court necessarily engages in a two-step analysis. First, we must
ask whether the evidence itself was sufficient to convict under Jackson. The inquiry
ends if the panel determines that there was sufficient evidence to convict [the
petitioner]. If we find that the evidence is insufficient to convict, we must then apply
AEDPA deference and ask whether the state court was “objectively unreasonable” in
concluding that a rational trier of fact could find [the petitioner] guilty beyond a
reasonable doubt.
Stewart v. Wolfenbarger, 595 F.3d 647,653 (6th Cir. 2010). In a habeas review, ‘“[a] defendant who
challenges the sufficiency of the evidence to sustain his conviction faces a nearly insurmountable
hurdle.’” Davis, 658 F.3d at 534 (quoting United States v. Oros, 578 F.3d 703,710 (7th Cir. 2009)).
In obj ecting to the R&R, Farmer contends that the magistrate judge was incorrect in finding
14

Case: l:17-cv-00860-SL Doc #: 23 Filed: 08/06/19 15 of 23. PagelD#:1221

that the federal court lacks the power to reach its own conclusion about how the term “law
enforcement officer” is defined under Ohio law. (Obj. at 1190.) Farmer seems to suggest in his
objections that it was inconsistent for the state court to hold that there was insufficient evidence to
define Farmer’s victim as a peace officer, while also holding that there was sufficient evidence to
define Farmer’s victim as a law enforcement officer. However, “law enforcement officer” is defined
in Ohio Rev. Code § 2901.01(A)(11), while “peace officer” is defined in a different section: Ohio
Rev. Code § 2935.01(B). Because law enforcement officer and peace officer have different
definitions, it is entirely possible, consistent, and reasonable to find Farmer’s victim fits one
definition, but not the other.
Further, on habeas review, this Court is “bound by state court interpretations of state criminal
law except in extreme circumstances where it appears that the interpretation is an obvious subterfuge
to evade consideration of a federal issue.” Warner v. Zent, 997 F.2d 116,133 (6th Cir. 1993). This
Court finds that the state court’s decision to define law enforcement officer as encompassing
Farmer’s victim, a railroad security officer, is reasonable and was not made to evade consideration of

t

any federal issue. Thus, the magistrate judge was correct to find that the federal court is bound by the
state’s interpretation of the state’s own criminal definitions.
Farmer also contends that the magistrate judge applied the wrong standard in determining
1
that Farmer’s claim of insufficient evidence lacked merit. (Obj. at 1188.) In determining whether
there was sufficient evidence to find Farmer’s victim fit the definition of a law enforcement officer,
;

this Court must first give deference to the trier-of-fact’s verdict, as contemplated by Jackson, and
then the Court must also give deference to the state court’s consideration of the trier-of-fact’s

i
5

verdict, as dictated by AEDPA. Davis, 658 F.3d at 531. This is the standard the magistrate judge
15
fi
I

Case: l:17-cv-00860-SL Doc#: 23 Filed: 08/06/19 16 of 23. PagelD#:1222

applied in his proper analysis and the Court agrees with the magistrate judge’s determination that
there was sufficient evidence to find Farmer’s victim fit the definition of law enforcement officer,
and, even if there was not, the state court was not unreasonable in holding that there was sufficient
evidence. As mentioned, ‘“[a] defendant who challenges the sufficiency of the evidence to sustain
his convictions faces a nearly insurmountable hurdle,”’ Id. at 534 (quoting Oros, 578 F.3d at 710),
and Farmer has failed to clear the hurdle.
Farmer’s first ground for relief, asserting insufficient evidence, must be dismissed because it
lacks any merit.
B.

Grounds Two and Three Procedural Default

A state criminal defendant with federal constitutional claims must present his federal claims
to the state courts for consideration before becoming eligible for habeas corpus relief. 28 U.S.C. §
2254(b), (c). When a petitioner has failed to exhaust his claims but would find those claims barred if
later presented to the state courts, “there is a procedural default for purposes of federal habeas ....”
Coleman v. Thompson, 501 U.S. 722, 735 n.l, 111 S. Ct. 2546, 115 L. Ed. 2d 640 (1991). A
petitioner may procedurally default a claim in two ways: (1) “by failing to comply with state

1

procedural rules in presenting his claim to the appropriate state court[;]”and (2) “by failing to raise a
claim in state court, and pursue that claim through the state’s ordinary appellate review procedures.”
Williams v. Anderson, 460 F.3d 789, 806 (6th Cir. 2006) (internal quotation marks and citation
omitted).
In the Sixth Circuit, a four-part analysis must be undertaken when the state argues that a
federal habeas claim is waived by the petitioner’s failure to observe a state procedural rule. Maupin
v. Smith, 785 F.2d 135, 138 (6th Cir. 1986). “First, the court must determine that there is a state
16

•1

Case: l:17-cv-00860-SL Doc#: 23 Filed: 08/06/19 17of 23. PagelD#:1223

procedural rule that is applicable to the petitioner’s claim and that the petitioner failed to comply
with the rule.” Id. Second, the Court must determine whether the state courts actually enforced the
state procedural sanction. Id. Third, it must be decided whether the state procedural forfeiture is an
adequate and independent state ground upon which the state can rely to foreclose review of a federal
constitutional claim. Id. Finally, if the Court has determined that a state procedural rule was not
complied with, and that the rule was an adequate and independent state ground, then the petitioner
must demonstrate that there was cause for him not to follow the procedural rule, and that he was
actually .prejudiced by the alleged constitutional error. Id.
If the habeas court determines that a procedural default has occurred, it is precluded from
considering the merits of claims procedurally barred in state court unless the petitioner “show[s]
cause for the default and actual prejudice as a result of the alleged violation of federal law, or
demonstrate that failure to consider the claims will result in a fundamental miscarriage ofjustice.”
Coleman, 501 U.S. at 750. In order to establish cause, petitioner must show that “some objective
factor external to the defense impeded . . . efforts to comply with the State’s procedural rule.”
Murray v. Carrier, All U.S. 478, 488, 106 S. Ct. 2639, 91 L. Ed. 2d 397 (1986).
1.

Ground Two: Brady Violation

In his second ground for relief, Farmer contends that he was denied due process under the
Fourteenth Amendment to the Constitution when the prosecution withheld or failed to provide video
evidence from the body camera worn by Farmer’s alleged victim or provide proper evaluation
thereof when said evidence was critical to Farmer’s defense. Farmer objects to the magistrate judge’s
finding that Farmer’s second ground for relief was procedurally defaulted. (Obj. at 1193.)
Specifically, Farmer contends that the magistrate judge’s application of the doctrine of ms judicata
17

Case: l:17-cv-00860-SL Doc#: 23 Filed: 08/06/19 18 of 23. PagelD#:1224

was improper because no forensic evaluations of the body camera or the body camera recordings
were discussed or presented at trial. (Id. at 1195.)
Farmer’s second ground for relief amounts to a Brady claim. See Brady y. Maryland, 373
U.S. 83, 83 S. Ct. 1194, 10 L Ed. 2d 215 (1963). To determine whether Farmer’s Brady claim is
procedurally defaulted, the Court must apply the Maupin factors as outlined above. Here, the first
three Maupin factors are easily met. First, the Ohio Court of Appeals applied the doctrine of res
judicata to determine that Farmer was barred from raising his Brady claim in post-conviction
proceedings. Second, the doctrine of res judicata is regularly applied by Ohio courts to preclude a
defendant from raising a claim that was previously fully litigated or that could have been fully
litigated at trial or on direct appeal. Jacobs v. Mohr, 265 F.3d 407, 417 (6th Cir. 2001); see also
State v. Cole, 443 N.E.2d 169, 170-71 (Ohio 1982); State v. Perry, 226 N.E.2d 104, 108 (Ohio
!

1967). Third, the Sixth Circuit has repeatedly held that Ohio’s res judicata doctrine is an adequate
and independent state ground to procedurally bar claims asserted in federal habeas actions. See, e.g.,

\

Durr v. Mitchell, 487 F.3d 423, 432 (6th Cir. 2007); see also Buell v. Mitchell, 274 F.3d 337, 349
>;

(6th Cir. 2001). The Sixth Circuit has also explained that “a federal habeas court sitting in review of
a state-court judgment should not second guess a state court’s decision concerning matters of state
law[,]” Greer v. Mitchell, 264 F.3d 663, 675 (6th Cir. 2O0l), unless the record reveals that the state
court’s reliance upon its own rules of procedural default is misplaced.

i

Moving to the fourth factor, Farmer must demonstrate that there was cause justifying his

I

failure to follow the procedural rule, and that he was actually prejudiced by the alleged constitutional
error. Farmer fails to establish any reason that justifies his failure to raise his Brady claim on direct
appeal or any actual prejudice he will suffer if not allowed to pursue his Brady claim in his habeas
18

i

1
1
i
5

i

ii

5
3

Case: l:17-cv-00860-SL Doc#: 23 Filed: 08/06/19 19 of 23. PagelD#:1225

petition.
Farmer concedes that “the issue of the working order of the body camera was discussed” at
trial, but “the issue regarding the recordings of the body camera was not and the recordings Were
never presented at trial.” (Obj. at 1193.) Because the recordings were not presented or explicitly
discussed at trial, Farmer contends that it was improper for the magistrate judge to find the issue is
precluded by res judicata.
Farmer misunderstands the proper application of res judicata. It is true that the video
recordings were not explicitly presented at trial, but whether the videos were presented at trial is not
the key inquiry in determining whether the issue of the recordings should have been raised on direct
appeal. The key factor in determining whether an issue is precluded by res judicata if not raised on
direct appeal is whether the issue was known to the defendant at trial and could have been appealed.
See Cole, 443 N.E.2d at 171 (“Under the doctrine of resjudicata, a final judgment of conviction bars
a convicted defendant who was represented by counsel from raising and litigating in any proceeding
except an appeal from that judgment, any defense or any claimed lack of due process that was raised
or could have been raised by the defendant at the trial, which resulted in that judgment or
conviction, or on an appeal from that judgment.” (quoting Perry, 226 N.E.2d at 108)).
The potentially damaged body cameras and lack of recordings were discussed at Farmer’s
trial. Farmer’s own objections reveal that he knew at trial that the body camera videos were not
provided to him and that no forensic evaluation was done to the body camera to determine if any
recordings existed. (See Obj. at 1194—95 (conceding that the body camera’s damage, the
unavailability of the recordings, and lack of forensic analysis were all discussed at trial).) Farmer

j

does not cite to any new information gained after trial regarding the body camera recordings. Thus,
19

\

Case: l:17-cv-00860-SL Doc#: 23 Filed: 08/06/19 20of 23. PagelD#:1226

he could have and should have—filed a direct appeal regarding the body camera recordings.
Further, this Court finds that Fanner has failed to provide any reason why there will be a
fundamental miscarriage ofjustice if his Brady claim is not considered.2
Alternatively, Farmer argues that he diligently tried to appeal the alleged Brady violation, but
the state-court system prevented him from a successful appeal attempt. Farmer points to a series of
journal entries issued by the state trial court relating to Fanner’s motion for resentencing. While the
Court observes that this series of filings is confusing and perhaps out of the ordinary, Farmer’s
default on his Brady claim occurred before this series of filings and they have no effect on his failure
to timely appeal the alleged Brady violation.

|
)

As such, Farmer s second ground for relief, asserting a Brady claim, is procedurally
defaulted because he failed to raise the issue on direct appeal in the state court system. Because
Farmer’s Brady claim is procedurally defaulted this Court cannot evaluate the claim. Farmer’s
second claim for relief must be dismissed.
3
i

I
1
\

5
;
Fanner contends the videos will show he did not attack his victim. However, Farmer does not give any reason to
suggest the body camera recordings actually exist. Again, he did not raise this issue at trial, or on direct appeal, and has
not provided any new information to suggest the body camera videos now exist. Nor has Fanner provided any
’ new,
reliable evidence to show that he is not guilty of the crimes for which he was convicted.

1

20

1
'

i

3

Case: l:17-cv-00860-SL Doc #: 23 Filed:

2.

08/06/19 21 of 23. PagelD #: 1227

Ground Three: Due Process Violation at Sentencing

In his third ground for relief, Farmer contends that his

sentence is unconstitutional in light of

the Ohio Supreme Court’s decision in State v. Hand, 840 N.E.2d 151 (Ohio 2006), because the state
trial court used Farmer’s juvenile record to extend his

sentence beyond statutory minimums and to

run his sentences consecutively. Farmer objects to the magistrate judgejs finding that Farmer’s third
ground for relief is procedurally defaulted. (Obj. at 1198.) Farmer contends that the magi
mischaracterized Farmer’s third ground for relief as

strate judge

a state issue, which is non-cognizable in a

federal habeas petition. (Id at 1198-99.) Further, Farmer contends that the magi

strate applied the

wron g standard m determining that Farmer’s third ground for relief was procedurally defaulted. (Id

!

at 1203.)
As an initial matter, the magistrate judge did not characterize Farmer’s third

ground for relief

as a state rssue so this objection by Farmer is completely without merit. The R&R stat
es explicitly
that the magistrate judge did notreach a conclusion as to whether Farmer’s third ground for relief is
!
i

a non-cognizable state claim. (R&R at 1180 & „.14 ([I], is unnecessary to reach a conclusion on [the

■i

third claim’s] cognizability.”).)

%
5
1

1

J

■j

i
j

21
i

Case: l:17-cv-00860-SL Doc #: 23 Filed: 08/06/19 22 of 23. PagelD #: 1228

To determine whether Farmer’s d

ue process claim is procedurally defaulted, the Court

returns to the Maupin factors. Again, the first three Maupin factors

are easily met. First, the Ohio

Court of Appeals dismissed Farmer’ s appeal of his denied resentencing motion (asserting Hand as
grounds for relief) because Farmer failed to file

a praecipe. (,See supra Subsection I.F. Motion for

Resentencing.) Second, dismissal of Farmer's appeal reflected thestate appellate court's imp
of a sanction for Farmer’s failure to comply with

osition

a procedural rule: Local Appellate Rule 9(B).

Third, “ [f]ailure to comply with written procedural rules detailingthe timing and filing of appellate
documents has been adjudged a bar to federal habeas review when the rules

of appellate procedure
are well established and regularly followed, i.e„ adequate and independent [sjtateprocedural rules.”
Marshall v. Brunsman, No. I:09cv259, 2011 WL 219925,

at *3 (N.D. Ohio Jan. 21, 2011).3

Moving to the fourth factor, Farmer must demonstrate that there
failure to follow the procedural rule, and that he was

was cause justifying his

actually prejudiced by the alleged constitutional

error. Farmer fails to establish any reason that justifies his failure to follow Ohio’s appellate
procedures and file a timely praecipe of appeal. Farmer does not identify
defense that caused his failure to file a praecipe. Further, this Court find

;

any reason external to the

s that Farmer has failed to

provide any reason why there will be a fundamental miscarriage ofjustice if his due process claim is,
dismissed because Farmer has not provided any new,

reliable evidence to show that he is not guilty

3

of the crimes for which he was convicted.

!

Irrir,

——■*-*

not be
applied the wrong standard in finding Farmer’s Muretofi eaa 1 F“contends the magistrate judge
amounted to a procedural default However the cases on whidfRam!136 ^
t0 °hl0S appellate procedural rules
no, habeas ,chons, and are thus ££3^ ZpLbl™ s"™™"^™hnhve
actions,
case.

j

22

i!

Case: l:17-cv-00860-SL Doc #: 23 Filed: 08/06/19 23 of 23. PagelD #: 1229

As such, Farmer’s third ground for relief, asserting a due process claim, is procedurally
defaulted because he failed to file a praecipe in accordance with the state

appellate rules. Because

Farmer’s due process claim is procedurally defaulted this Court cannot evaluate the claim. Farmer’s
third claim for relief must be dismissed.
IV. CONCLUSION
For the reasons set forth herein, Farmer’s objections to the R&R are OVERRULED and the
R&R is ACCEPTED. The petition for writ of habeas

corpus is DENIED and this case is

DISMISSED. Further, the Court certifies that an
appeal from this decision could not be taken in
good faith and that there is no basis upon which to issue a certificate of appealability. 28 U.S.C. §
1915(a)(3), 2253(c); Fed. R. App. P, 22(b).

IT IS SO ORDERED.

Dated: August 6, 2019

HONOI&bLe^RA
LIOI
UNITED STATES DISTRICT JUDGE

23

Case: l:17-cv-00860-SL Doc#: 20 Filed: 02/12/19 lof33. PagelD#:1150

IN THE UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF OHIO
EASTERN DIVISION
BRUCE L. FARMER,

)

Case No. l:17-cv-0860

)

Petitioner,

)

JUDGE SARA LIOI

)

v.
CHARMAINE BRACY, Warden,

)
)

MAGISTRATE JUDGE
THOMAS M. PARKER

)
)

Respondent.

)

REPORT & RECOMMENDATION

)

I.

Introduction
Petitioner, Bruce L. Farmer, seeks a writ of habeas corpus under 28 U.S.C. § 2254,

claiming that his conviction and sentence in State v. Farmer, Case No. CR-13-579424-A,
(Cuyahoga County, Ohio Court of Common Pleas), as affirmed in State v. Farmer, 2015-Ohio4676, 2015 Ohio App. LEXIS 4573 (Ohio Eighth Dist. App., November 12, 2015) violated his
constitutional rights. ECF Doc. No. 1. Respondent Warden, Charmaine Bracy1, has filed a
return of writ. ECF Doc. 15. Farmer has filed a traverse. ECF Doc. 19.
The matter is again before me by this Court’s August 6, 2018 order of reference for
preparation of a report and recommendation on Farmer’s petition. Because each of Farmer’s
claims has been procedurally defaulted or lacks merit, I recommend that the Court DISMISS all
of Farmer’s grounds for relief and DENY his petition for writ of habeas corpus.
1 Charmaine Bracy was the warden of Trumbull Correctional Institution, where Farmer is incarcerated, at
the time Farmer filed his petition. ECF Doc. 1 at Page ID# 1. The current Trumbull Correctional
Institution warden is Brandeshawn Harris, https://www.drc.ohio.gov/tci (last visited January 31, 2019).

EXHIBIT G

Case: l:17-cv-00860-SL Doc#: 20 Filed: 02/12/19 2 of 33. PagelD#:1151

II.

Procedural History
A.

State Trial Court Conviction

A Cuyahoga County, Ohio grand jury issued a five-count indictment against Farmer on
October 29, 2013 charging him with: Count One - Aggravated Robbery, in violation of Ohio
Rev. Code. §2911.01(B)(1), a first-degree felony (Count One also had a three-year firearm
specification under Ohio Rev. Code § 2941.145(A) and a one-year firearm specification under
Ohio Rev. Code § 2941.141(A)); Count Two - Assault on a peace officer, in violation of Ohio
Rev. Code § 2903.13(A), a fourth-degree felony; Count Three - Breaking and Entering in
violation of Ohio Rev. Code § 2911.13(B), a fifth-degree felony; Count Four - Disrupting Public
Service, in violation of Ohio Rev. Code § 2909.04(A)(3), a fourth-degree felony; and Count Five
- Resisting Arrest, in violation of Ohio Rev. Code § 2921.33(B), a first-degree misdemeanor.
ECF Doc. 5-1, Ex. 1, Page ID# 55. Farmer pleaded not guilty to the charges and proceeded to
jury trial commencing on November 17, 2014. Id. at Page ID# 59.
On November 21, 2014 Farmer was found guilty of each of the counts; the trial judge
dismissed the firearm specifications after the State of Ohio withdrew them prior to the
commencement of trial. Id. at Ex. 4, Page ID# 60.
The trial court conducted a sentencing hearing on December 29, 2014. Farmer was
ordered to serve a prison term of eleven years on the Count One Aggravated Robbery charge,
eighteen months on the Count Two Assault on a Peace Officer charge, twelve months on the
Count Three Breaking and Entering charge, eighteen months on the Count Four Disrupting
Public Service charge, and six months on the Count Five Resisting Arrest Charge. The prison
terms on Counts One, Two, Three and Four were ordered to be served consecutively; the prison
term on Count Five was to be served concurrently to the other counts. In addition, the trial court

2

Case: l:17-cv-00860-SL Doc#: 20 Filed: 02/12/19 3 of 33. PagelD#:1152

imposed a two-year consecutive prison term pursuant to Ohio Rev. Code § 2929.141 as a
sanction for Farmer’s violation of the terms of pre-existing post-release control. The aggregate
sentence was seventeen years. The court notified Farmer of the imposition of post-release
control, made findings necessary for consecutive sentences, advised Farmer of his appeal rights
and appointed appellate counsel. Id. at Ex. 5, Page ID# 61.
B.

Direct Appeal

Farmer, represented by new counsel, filed a timely notice of appeal to the Ohio Court of
Appeals on January 28, 2015. Id. at Ex. 6, Page ID# 63. Farmer’s appellate brief asserted four
assignments of error:
1.

It was error for the trial court to overrule Mr. Farmer’s Crim.R.29 Motion for
Judgment of Acquittal as to [Counts] 1, 4 and 5 made at the close of all the
evidence as there was no evidence that the alleged victim of the acts charged
in those counts was a “law enforcement officer” as alleged in the indictment
and as the term is defined in the Revised Code.

2

Mr. Farmer was denied his constitutional right to a fair trial and due process
when he was found guilty on Counts 1, 4, and 5 when the counts was
insufficient as it did not show that the alleged victim of the acts charged in
those counts was a “law enforcement officer” as alleged in the indictment and
as the term is defined in the Revised Code.

3.

The jury verdict finding Mr. Farmer guilty as charged in Count 2 of the
indictment should be vacated because the evidence did not show that
James Kirk was a peace officer as the term was defined for them.

4. The trial court erred when it imposed an additional and consecutive twoyear sentence for violation of post-release control in case no. 468217.
Id. at, Ex. 7, Page ID# 71-72. The State filed a brief opposing Farmer’s arguments. Id. at Ex 8,
Page ID# 91. In a November 12, 2015 journal entry and opinion, the Ohio Court of Appeals: (1)
vacated the jury’s finding on the Count Two Assault charge that the victim was a peace officer,
vacated the trial court’s sentence on that count and remanded the case for resentencing on Count
Two only; (2) vacated the sentence imposed for the post-release control violation, thereby
3

Case: l:17-cv-00860-SL Doc #: 20 Filed: 02/12/19 4 of 33. PagelD#:1153

sustaining Farmer’s fourth assignment of error; and (3) overruled Farmer’s first and second
assignments of error, thereby affirming his convictions on Counts One, Three and Four. Farmer
had not appealed from his conviction on Count Five. The case was remanded for further
proceedings. ECF Doc. 5-1, Ex. 9, Page ID# 107, 116-117.
Farmer filed a timely notice of appeal and memorandum in support of jurisdiction in the
Ohio Supreme Court on December 23, 2015. MatExs. 10, 11, Page ID# 118, 120. Farmer
raised one proposition of law:
1.

Because under the Rule of Lenity and the doctrine expressio unius est exclusio
alterius, R.C. 2901.01 (A)( 11) provide the exclusive definition of “Law
Enforcement Officer” for the offenses set forth in R.C. Chapter 29, a person
not fitting any definition in that section is not a law enforcement officer and a
conviction of an offense against such person as a law enforcement officer is
based on insufficient evidence and must be vacated.

ECF Doc. 6-1, Ex. 8, Page ID# 101. The State filed memorandum in opposition to jurisdiction.
Id. at Ex. 12, Page ID# 131. The Ohio Supreme Court declined jurisdiction on April 20, 2016.
Id. at Ex. 13, Page ID# 142. Farmer did not seek further review in the United States Supreme
Court. ECF Doc. 1, Page ID# 3.
C.

Resentencing

Pursuant to the Ohio Court of Appeals mandate, Farmer returned to the trial court for
resentencing on January 24, 2017. The trial court imposed a six-month prison term on Count
Two and ordered that it be served concurrently with the sentence previously imposed on the
Count One Aggravated Robbery charge. With the modification of the Count Two sentence and
the vacation of the sentence on the post-release control violation, Farmer’s aggregate sentence
became 13 years and six months. ECF Doc. 5-1, Ex. 14, Page ID# 143. Farmer did not appeal
the re-sentencing decision.

4

Case: l:17-cv-00860-SL Doc#: 20 Filed: 02/12/19 5 of 33. PagelD#:1154

D.

Petition to Vacate or Set Aside Judgment of Conviction or Sentence

While his direct appeal was pending, Farmer filed a pro se Petition to Vacate or Set
Aside Judgment of Conviction or Sentence on October 19, 2015. Id. at Ex. 15, Page ID# 144.
Farmer’s petition raised a single claim: “[H]e “was denied due process when the State withheld
or failed to provide video evidence from the body camera worn by the alleged victim.” The State
filed a brief in opposition on November 17, 2015. Id. at Ex. 16, Page ID# 158. By a journal
entry dated April 13, 2016 the trial court denied Farmer’s petition. Id. at Ex. 17, Page ID# 165.
The trial court ruled that the arguments Farmer presented in his petition could have been raised
on his direct appeal; and it concluded that the claims were barred by the doctrine of res judicata.
Id.
Farmer filed a pro se notice of appeal on May 6, 20162 in regard to the trial court’s April
13, 2016 journal entry. The case was assigned court of appeals case number CA 16 104451. Id.
at Ex. 19, Page ID# 167.
Despite its April 13, 2016 journal entry, the trial court filed another journal entry on June
7, 2016 also denying Farmer’s Motion to Vacate or Set Aside Judgment of Conviction or
Sentence. Id. at Ex. 18, Page ID# 166. The June 7 journal entry - as with the April 13 entry reflected the reasoning of the court, but it did so by expressing different grounds for denying the
petition than had been expressed in the earlier entry. Farmer did not file within the thirty-day
deadline to appeal, a notice of appeal of the June 7 ruling.
Instead, Farmer appears to have tried to deal with this pair of orders by filing, pro se, a
Motion for an Order for a Final Appealable Order on July 19, 2016. Id. at Ex. 21, Page ID# 177.
Farmer argued that under Ohio law two judgment entries for the same decision cannot constitute

2 Farmer’s notice of appeal certificate of service indicates he mailed the notice in April 2016, but he did
not fill in the date of the month.
5

Case: l:17-cv-00860-SL Doc#: 20 Filed: 02/12/19 6 of 33. PagelD#:1155

a final appealable order. The State filed a brief in opposition on July 22, 2016. Id. at Ex. 22,
Page ID# 181. The State - making no mention of the April 13 journal entry from which Farmer
had originally appealed - argued that the June 6 trial court entry was sufficient to constitute a
final appealable order. The trial court denied the motion in an entry dated July 25, 2016,
mirroring the State’s argument and stating: “The court’s 6/7/16 journal entry is sufficient to
constitute a final appealable order.” Id. at Ex. 23, Page ID# 185.
Although Farmer had filed a praecipe and a docketing statement with his notice of appeal
from the April 13 ruling on his petition to vacate, he never filed an appellate brief, and the Ohio
Court of Appeals dismissed Appeal No. 104451 sua sponte on August 1, 2016, “for failure to file
a brief.” App. R. 18(C). Id. at Ex 20, Page ID# 176.
On August 12, 2016 Farmer filed a notice of appeal from the trial court’s June 7, 2016
order denying his petition to vacate or set aside judgment of conviction or sentence, citing the
trial court’s July 25, 2016 entry as having provided “affirmation” that the June 7 order was the
final appealable order concerning the petition. Farmer claimed his appeal was timely-filed
relative to the July 25 trial court order. The Ohio Court of Appeals assigned case number CA 16
104840 to Farmer’s notice of appeal. Id. at Ex. 24, Page ID# 186. On September 6, 2016 the
court of appeals dismissed Farmer’s appeal number 104840 sua sponte for want of a final
appealable order. Id. at Ex. 25, Page ID# 198.
Farmer filed a second motion for a final appealable order on October 7, 2016, reciting the
same facts he asserted in his initial motion for a final appealable order but adding the fact of his
most recent attempt to appeal and of the court of appeals’ sua sponte dismissal thereof. Id. at Ex.
26, Page ID# 199. On October 17, 2016 the State filed a brief in opposition, again asserting,
among other things, that the trial court’s June 7, 2016 order denying Farmer’s petition to vacate

6

Case: l:17-cv-00860-SL Doc#: 20 Filed: 02/12/19 7 of 33. PagelD.#: 1156

was a final appealable order from which Farmer failed to appeal.3 ECF Doc. 5-1, Ex. 27, Page
ID# 202. On October 31, 2016 the trial court issued a journal entry denying Farmer’s second
motion for a final appealable order, stating: “The defendant received a final appealable order on
6/7/16 when this court denied his motion to vacate/set aside conviction. He should have
appealed from that order. Unfortunately, the time to file that appeal has long since passed.”
ECF Doc. 5-1, Ex. 28, Page ID# 206. As with the State’s filings, the trial court’s entry made no
mention of its original, April 13, 2016 entry denying the petition to vacate or Farmer’s appeal
therefrom.4
E.

Motion for Resentencing

On January 5, 2017, Farmer filed a pro se motion for resentencing for “the offenses for
which he has been convicted in the instant case.” Id. at Ex. 36, Page ID#244. Farmer contended
the trial court improperly relied upon his juvenile criminal history when it determined to impose
consecutive sentences in violation of the principles announced in State v. Hand, 2016-Ohio5504. He also argued his sentences were improperly determined based on the trial court’s
erroneous conclusion that he was on post-release control at the time he committed the offenses
charged in this case. As noted in Section IIC above, Famer was in the trial court on January 24,
2017 and resentenced pursuant to the court of appeals’ mandate and remand. By a journal entry
filed on January 25, 2017 (the day after Farmer was resentenced), the trial court denied Farmer’s
motion for resentencing without discussion. Id. at Ex. 37, Page ID# 248.

3 This State filing again made no mention of the trial court’s April 13, 2016 order and Farmer’s appeal
therefrom. And the State never acknowledged, much less discussed, the confusion that would have arisen
as a result of two journal entries - April 13 and June 7 - purporting to deny the same petition.
4 Respondent essentially acknowledges the confusion evidenced by these filings by stating the following
in her return of writ: “[WJhile Farmer had timely appealed the trial court’s order denying his post­
conviction petition, he failed to prosecute that appeal, resulting in the appellate court’s sua sponte
dismissal of the case. Farmer failed to perfect any appeal of the trial court’s second order denying his
post-conviction petition.” ECF Doc. 15, Page ID# 327.
7

Case: l:17-cv-00860-SL Doc#: 20 Filed: 02/12/19 8 of 33. PagelD#:1157

On August 11, 2017 Farmer filed a pro se motion in the trial court requesting that he be
properly served with the January 25, 2017, order, contending he’d never been served properly.
ECF Doc. 15-1, Ex. 38, Page ID# 354.5 The trial court granted the motion on August 17, 2017.
Id at Ex. 39, Page ID# 361. On September 19, 2017, Farmer filed a notice of appeal from the
trial court’s January 25, 2017, order dismissing his post-conviction motion for resentencing.
EFC Doc. 15-1, Ex. 40, Page ID# 362. The appeal was assigned case number CA 17 106280.
The Ohio Court of Appeals dismissed appeal no. 106280, sua sponte, on September 27, 2017
r
“for failure to file a praecipe in accordance with Local App. R. 9(B).” Id. at Ex. 41, Page ID#
367. Farmer did not appeal that ruling to the Supreme Court of Ohio.
Instead, on October 13, 2017 - in an apparent attempt to overcome his failure to file a
praecipe in connection with CA 17 106280 - Farmer filed a new notice of appeal (complete with
praecipe and docketing statement) concerning the January 25, 2017 order denying his motion for
resentencing. The new appeal was assigned court of appeals case number CA 17 106370. ECF
Doc. 15-1, Ex. 42, Page ID# 368. Also, in connection with his new appeal, on October 13, 2017
Farmer filed a motion for leave to file a delayed appeal, pursuant to Ohio Appellate Rule 5. Id.
at Ex. 43, Page ID# 382. Six days later, on October 19, 2017 the Ohio Court of Appeals filed
two journal entries, one denied Farmer’s motion to file a delayed appeal and the other dismissed
„ jt

i •-

.t *

the appeal sua sponte in light of the delayed appeal denial. Id. at Exs. 44, 45, Page ID# 385, 386.
On November 3, 2017 Farmer filed an application for reconsideration of the denial of
delayed appeal and the dismissal of the appeal, purportedly pursuant to Ohio Appellate Rule 26.
Id. at Ex. 46, Page ID# 387. Four days later, on November 7, 2017 the Ohio Court Appeals
issued a journal entry denying the motion for reconsideration. Id. at Ex. 47, Page ID# 391.

5 The court notes respondent has duplicated exhibit numbers in its two filings of state court record
documents.
8

Case: l:17-cv-00860-SL Doc#: 20 Filed: 02/12/19 9 of 33. PagelD#:1158

Farmer filed a notice of appeal to the Ohio Supreme Court on December 11, 2017
concerning the disposition of his most recent appeal (CA 17 106370). ECF Doc. 15-1, Ex. 48,
Page ID# 392. Farmer’s memorandum in support of jurisdiction asserted two propositions of
law:
First Proposition of Law: Is an appellant denied due process of law when he is
denied an appeal for an inadvertent unneeded and inconsequential omission of a
praecipe?
Second Proposition of Law: Is an appellant denied due process of law under the ■
Ohio and U.S. Constitutions when the trial court utilized illegal and improper
information when formulating appellant’s sentence per this court’s ruling in State
v. Hand, 149 Ohio St.3d 947?
ECF Doc. 15-1, Ex. 49, Page ID# 395. The State filed a waiver of its right to file a response
memorandum on December 22, 2017. Id. at Ex. 50, Page ID# 406. The Ohio Supreme Court
declined jurisdiction by a journal entry filed on April 25, 2018. Farmer did not seek further
review in the United States Supreme Court.
F.

Motion to Vacate a Void Judgment

Earlier, on April 10, 2017 Farmer - ostensibly unaware of the trial court’s January 25,
2017 ruling on his motion for resentencing - filed a post-conviction motion to vacate the original
judgment of conviction and sentence based on his contention that the trial court impermissibly
used his juvenile record to enhance his sentence, in violation of the Ohio Supreme Court decision
in State v. Hand, 2016-0hio-5504 (essentially the same argument made in his motion for
resentencing). ECF Doc. 5-1, Ex. 29, Page ID# 207. The State filed a brief in opposition on
April 18, 2017 arguing that Farmer’s interpretation of State v. Hand lacked merit and that res
judicata principles prevented Farmer from relitigating the same issue decided in the disposition
of his motion for resentencing. Id. at Ex. 30, Page ID# 215. The trial court denied the motion to
vacate by a journal entry filed April 24, 2017. Id. at Ex. 31, Page ID# 219.
9

Case: l:17-cv-00860-SL Doc#: 20 Filed: 02/12/19 10 of 33. PagelD#:1159

On May 18, 2017 Farmer filed a notice of appeal concerning the April 24, 2017 order
denying his motion to vacate, and it was assigned court of appeals case number CA 17 105797.
Id. at Ex. 32, Page ID# 220. Farmer’s appellate brief raised a single assignment of error: “The
trial court erred to Appellant’s prejudice when he denied his postconviction relief predicated on
the violation of recently made applicable to Ohio defendants in State v. Hand, 2016-0hio-5504.”
ECF Doc. 5-1, Ex. 33, Page ID# 229. The State moved to dismiss the appeal in a filing dated
July 20, 2017, arguing that Farmer’s failure to perfect a timely appeal of the trial court’s January
25, 2017 denial of Farmer’s motion for resentencing - an Order from which Farmer did not
appeal - barred the appeal under res judicata principles. Id. at Ex. 34, Page ID# 237. On July
25, 2017 the Ohio Court of Appeals granted the State’s motion to dismiss appeal no. CA 17
105795, adopting the State’s res judicata argument. Id. at Ex. 35, Page ID# 243. Farmer did not
appeal this decision to the Supreme Court of Ohio.
G.

Federal Habeas Corpus Petition

Farmer filed his pro se petition for writ of habeas corpus in this court on April 21,2017.
ECF Doc. 1. Normally, applying the prison mailbox rule,6 the petition would be deemed to have
been filed on the date Farmer placed it in the prison mail system. However, Farmer did not list
the date on which he mailed the document. Id. at Page ID# 9. Farmer now raises three grounds
for relief:
GROUND ONE: Petitioner was convicted for offenses committed against a law
enforcement officer without sufficient evidence to support said convictions as the
alleged victim’s employment did not render him a law enforcement officer.
GROUND TWO: Petitioner was denied due process of the law under the
Fourteenth Amendment to the U.S. Constitution when the State withheld or failed
to provide video evidence from the body camera worn by alleged victim or
provide proper evaluation thereof when said evidence was critical to his defense.
6 Houston v. Lack, 487 U.S. 266, 270 (1988).
10

Case: l:17-cv-00860-SL Doc#: 20 Filed: 02/12/19 11 of 33. PagelD#:1160

GROUND THREE: Petitioner’s sentence was void due to constitutional
violations as applied to the State of Ohio through the Ohio Supreme Court’s
decision in State v. Hand, 2016-0hio-5504; 2016 Ohio LEXIS 2106, where the
use of Petitioner’s juvenile record was used to extend his sentence beyond
statutory minimums and to fun his sentences consecutively.
ECF Doc. 1, Page ID# 4, 5, 7. Because Farmer still had state court proceedings ongoing at the
time he filed his habeas petition, respondent moved to dismiss the petition on September 26,
2017 because it contained both exhausted and unexhausted claims for relief. ECF Doc. 5.
Farmer moved to have the matter stayed and held in abeyance so that he could complete his state
court litigation. ECF Doc. 6. Farmer filed a second motion for stay and abeyance on January 16,
2018. ECF Doc. 8. On February 16, 2018, the undersigned filed a report and recommendation
that respondent’s motion be denied, and that Farmer be granted a limited amount of time in
which to file an amended petition that would omit his unexhausted Ground Three claim. ECF
Doc. 9. On August 6, 2018 the Court issued a memorandum of opinion and order overruling all
pending motions and referring the petition back to the undersigned for a report and
recommendation on all grounds for relief. ECF Doc. 12.
Respondent filed a return of writ and a supplement to the state court record on October 5,
2018. ECF Doc. 15. Farmer filed his traverse on December 10, 2018. ECF Doc. 19. The matter
is ripe for disposition.
III.

The Facts
The analysis of Farmer’s petition begins with the facts recited in the Ohio Court of

Appeals opinion:
{^f 3} The offenses arose from an incident that occurred on October 21, 2013.
James Kirk, an officer with the Norfolk Southern Railroad Police Department,
testified that he was patrolling in his unmarked police vehicle along a stretch of
railroad track in Cleveland when he saw three individuals, one of whom was
appellant, trespassing. He activated his lights, stopped the individuals, and

11

Case: l:17-cv-00860-SL Doc#: 20 Filed: 02/12/19 12 of 33. PagelD#:1161

informed them they were trespassing. Officer Kirk was wearing a police uniform,
including his badge, and was carrying mace and a firearm.
{114} When Officer Kirk questioned appellant as to the spelling of the name he
provided, appellant became nervous, turned, and ran. Officer Kirk chased
appellant, caught him, handcuffed him, and brought him back to the police
vehicle.
{^5} According to the testimony of Officer Kirk, as he attempted to use his cell
phone to call for assistance, appellant pulled one of his hands loose from the
handcuffs and swung at the officer. Officer Kirk was able to handcuff appellant
again, but the struggle continued. During the struggle, appellant hit the officer,
attempted to grab the officer’s gun, sprayed the officer with mace, and broke the
officer’s cell phone during the officer’s attempt to call for backup.
{]f 6} Officer Kirk began yelling for someone to call 911. A neighbor from the
area made the call. The neighbor testified that she saw the officer trying to hold
the suspect on the ground and that the suspect kept fighting. She stated the officer
was asking for help and asking the suspect to stop. Other bystanders arrived at
the scene, and the two individuals who were with appellant on the tracks also
returned. One of those individuals took an aggressive stance toward the officer, at
which point the bystanders intervened. Eventually, the Cleveland police arrived.
{f 7} Officer Kirk testified that he is “a certified police officer under the State of
Ohio, and * * * commissioned through the State of Ohio with the Norfolk
Southern Railroad Police Department.” He further testified to his training,
qualifications, and duties as a law enforcement officer.
{^| 8} Appellant testified that after being stopped by the officer for walking on
the tracks, he ran and was caught. According to appellant, after he was taken
back to the police vehicle, the officer pushed appellant to the ground, pinned
appellant in a choke hold, and maced appellant and himself. Appellant denied
reaching for the officer’s weapon. Appellant’s former girlfriend, who was one of
the individuals with him on the tracks, testified that she observed the officer place
appellant in a choke hold and that when the officer went to spray appellant with
mace, he essentially sprayed himself.
{If 9} During trial, the trial court denied appellant’s Crim. R. 29 motion for
acquittal. The jury returned a verdict of guilty on all counts. The trial court
imposed maximum consecutive sentences for the first four counts and a
concurrent six-month sentence for resisting arrest, for a total prison term of 15
years. The court also revoked postrelease control imposed in Cuyahoga C.P. No.
CR-468217 and sentenced appellant to an additional and consecutive two years
for the violation.
12

Case: l:17-cv-00860-SL Doc#: 20 Filed: 02/12/19 13 of 33. PagelD#:1162

State v. Farmer 2015-Ohio-4676, 2015 Ohio App. LEXIS 4573 (Ohio Eighth Dist. App.,
November 10, 2015). In a habeas corpus proceeding, factual determinations made by state courts
are presumed correct unless the petitioner rebuts them by clear and convincing evidence. 28
U.S.C. § 2254(e)(1); see also Franklin v. Bradshaw, 695 F.3d 439, 447 (6th Cir. 2012);
Montgomery v. Bobby, 654 F.3d 668, 701 (6th Cir. 2011).
IV.

Legal Standards
A.

AEDPA

A state habeas prisoner’s claims for habeas corpus relief are governed by the Antiterrorism
and Effective Death Penalty Act, Pub. L. 104-132, 110 Stat. 1214 (“AEDPA”), which amended
the habeas corpus statute by including a standard of review that gives significant deference to the
decisions made by the state courts on the constitutional issues raised in a habeas corpus petition.7
See Penry v. Johnson, 532 U.S. 782, 791, 121 S. Ct. 1910, 150 L. Ed. 2d 9 (2001); Wilson v.
Parker, 515 F.3d 682, 691 (6th Cir.2008). AEDPA imposes a “highly deferential standard for
evaluating state-court rulings,” Lindh v. Murphy, 521 U.S. 320, 333, n. 7, 117 S. Ct. 2059, 138 L.
Ed. 2d 481 (1997), and “demands that state-court decisions be given the benefit of the doubt,”
Woodford v. Visciotti, 537 U.S. 19, 24, 123 S. Ct. 357, 154 L. Ed. 2d 279,(2002) (per curiam).
When the claim presented in a habeas corpus petition has been presented to and decided
on the merits by the state courts, a federal habeas court may not grant relief unless the state court’s
decision was contrary to or an unreasonable application of clearly established federal law or based

7 Petitions for habeas corpus relief under AEDPA are governed by the statute of limitations set forth in 28
U.S.C. § 2254. A review of Farmer’s state court record reveals his petition was timely filed. Because
Respondent raises no timeliness issue, I find it unnecessary to set forth a statute of limitations analysis in
this report.
13

Case: l:17-cv-00860-SL Doc#: 20 Filed: 02/12/19 14 of 33. PagelD#:1163

on an unreasonable determination of the facts in light of the evidence that was presented. 28 U.S.C.
§ 2254(d) provides:
An application for a writ of habeas corpus on behalf of a person in custody
pursuant to the judgment of a State court shall not be granted with respect to any
claim that was adjudicated on the merits in State court proceedings unless the
adjudication of the claim(1) resulted in a decision that was contrary to, or involved an unreasonable
application of, clearly established Federal law, as determined by the
Supreme Court of the United States; or
(2) resulted in a decision that was based on an unreasonable determination
of the facts in light of the evidence presented in the State court proceeding.
In applying this statute, the Supreme Court has held that “[t]he focus ... is on whether
the state court’s application of clearly established federal law is objectively unreasonable ... an
unreasonable application is different from an incorrect one.” To obtain habeas corpus relief, a
petitioner must show the state court’s decision was “so lacking in justification that there was an
error well understood and comprehended in existing law beyond any possibility for fairminded
disagreement.” Bobby v. Dixon, 565 U.S. 23, 24, 132 S. Ct. 26, 181 L. Ed. 2d 328 (2011),
quoting Harrington v. Richter, 562 U.S. 86, 103, 131 S. Ct. 770, 178 L. Ed. 2d 624 (2011). This
bar is “difficult to meet” because “habeas corpus is a ‘guard against extreme malfunctions in the
state criminal justice systems,’ not a substitute for ordinary error correction through appeal.”
Harrington v. Richter, 562 U.S. at 102-103 (quoting Jackson v. Virginia, 443 U.S. 307, 332, n.
50, 99 S. Ct. 2781, 61 L. Ed. 2d 560 (1979) (Stevens, J., concurring in judgment)). In short, “[a]
state court’s determination that a claim lacks merit precludes federal habeas relief so long as
‘fairminded jurists could disagree’ on the correctness of the state court’s decision.” Id., quoting
Yarborough v. Alvarado, 541 U.S. 652, 664, 124 S. Ct. 2140, 158 L. Ed. 2d 938 (2004). “The
question under AEDPA is not whether a federal court believes the state court’s determination

14

Case: l:17-cv-00860-SL Doc#: 20 Filed: 02/12/19 15 of 33. PagelD#:1164

was incorrect but whether that determination was unreasonable - a substantially higher
threshold.” Schriro v. Landrigan, 550 U.S. 465, 473, 127 S.Ct. 1933, 167 L.Ed.2d 836 (2007).
B.

Exhaustion and Procedural Default

When a habeas petitioner presents a ground for relief that has not been presented to and
decided on the merits by the highest state court that could pass upon such a claim, the federal
court must make a close examination of the record to find out why the review did not occur. In
almost every circumstance, federal courts may neither review such claims on the merits nor grant
habeas relief in regard to such claims.
AEDPA provides a way for state prisoners who are being held in custody in violation of
the constitution or laws or treaties of the United States to apply to the federal courts for a writ of
habeas corpus. 28 U.S.C. §2254(a). In recognition of the equal obligation of the state courts to
protect the constitutional rights of criminal defendants, and in order to prevent needless friction
between the state and federal courts, a state criminal defendant with federal constitutional claims
must present those claims to the state courts for consideration before becoming eligible for
habeas corpus relief. 28 U.S.C. §2254(b), (c). If he fails to do so, but still has an avenue open to
him by which he may present his claims, then his petition is subject to dismissal for failure to
exhaust state remedies. Id.', Anderson v. Harless, 459 U.S. 4, 6, 103 S. Ct. 276, 74 L. Ed. 2d 3
(1982) (per curiam) (citing Picard v. Connor, 404 U.S. 270, 275-78, 92 S. Ct. 509, 30 L. Ed. 2d
438 (1971)). But when a petitioner has failed to exhaust his claims but would find those claims
barred if later presented to the state courts, “there is a procedural default for purposes of federal
habeas ....” Coleman v. Thompson, 501 U.S. 722, 735 n. 1, 111 S. Ct. 2546, 115 L. Ed. 2d 640
(1991).

15

Case: l:17-cv-00860-SL Doc#: 20 Filed: 02/12/19 16 of 33. PagelD#:1165

The term “procedural default” has come to describe the situation in which a person
convicted of a crime in a state court fails (for whatever reason) to present a particular federal
claim to the highest court of the state so that the state has a fair chance to correct any errors made
in the course of the trial or the appeal before a federal court intervenes in the state criminal
process. This “requires the petitioner to present ‘the same claim under the same theory’ to the
state courts before raising it on federal habeas review.” Hicks v. Straub, 111 F.3d 538, 552-53
(6th Cir. 2004) (quoting Pillette v. Foltz, 824 F.2d 494, 497 (6th Cir. 1987)). One of the aspects
of “fairly presenting” a claim to the state courts is that a habeas petitioner must do so in a way
that gives the state courts a fair opportunity to rule on the federal law claims being asserted.
Most importantly, a ‘“petitioner must present his claim to the state courts as a federal
constitutional issue - not merely as an issue arising under state law.’” Id. (quoting Koontz v.
Glossa, 731 F.2d 365, 368 (6th Cir. 1984)):
If the claims are not presented to the state courts in the manner state law requires, and the
state courts therefore have not decided the federal claims on their merits, neither may a federal
court do so. In the words used by the United States Supreme Court in Wainwright v. Sykes, 433
U.S. 72, 87, 97 S. Ct. 2497, 53 L. Ed. 2d 594 (1977), “contentions of federal law which were not
resolved on the merits in the state proceeding due to respondent’s failure to raise them there as
required by state procedure” also cannot be resolved on their merits in a federal habeas case-that
is, they are “procedurally defaulted.”

8 Federal habeas courts review a petitioner’s state-court briefs to determine whether he or she fairly
presented a claim as a federal constitutional claim, examining the petitioner’s: “(1) reliance upon federal
cases employing constitutional analysis; (2) reliance upon state cases employing federal constitutional
analysis; (3) phrasing the claim in terms of constitutional law or in terms sufficiently particular to allege a
denial of a specific constitutional right; or (4) alleging facts well within the mainstream of constitutional
law.” Williams v. Anderson, 460 F.3d 789, 806 (6th Cir. 2006) (quoting Newton v. Million, 349 F.3d 873,
877 (6th Cir. 2003)).

16

Case: l:17-cv-00860-SL Doc#: 20 Filed: 02/12/19 17 of 33. PagelD#:1166

In the Sixth Circuit, a four-part analysis must be undertaken when the state argues that a
federal habeas claim is waived by the petitioner’s failure to observe a state procedural rule.
Maupin v. Smith, 785 F.2d 135, 138 (6th Cir. 1986). “First, the court must determine that there is
a state procedural rule that is applicable to the petitioner’s claim and that the petitioner failed to
comply with the rule.” Id. Second, the Court must determine whether the state courts actually
enforced the state procedural sanction. Id. Third, it must be decided whether the state
procedural forfeiture is an adequate and independent state ground upon which the state can rely
to foreclose review of a federal constitutional claim. Id. Finally, if the Court has determined that
a state procedural rule was not complied with, and that the rule was an adequate and independent
state ground, then the petitioner must demonstrate that there was cause for him not to follow the
procedural rule, and that he was actually prejudiced by the alleged constitutional error. Id. This
“cause and prejudice” analysis applies to failures to raise or preserve issues for review at the
appellate level. Leroy v. Marshall, 757 F.2d 94 (6th Cir. 1985). Turning to the fourth part of the
Maupin analysis, in order to establish cause, petitioner must show that “some objective factor
external to the defense impeded counsel’s efforts to comply with the State’s procedural rule.”
Murray v. Carrier, All U.S. 478, 488, 106 S. Ct. 2639, 91 L. Ed. 2d 397 (1986).
If, after considering all four factors of the Maupin test, the court concludes that a
procedural default has occurred, it is barred from considering the procedurally defaulted claim on
the merits unless “review is needed to prevent a fundamental miscarriage of justice, such as
when the petitioner submits new evidence showing that a constitutional violation has probably
resulted in a conviction of one who is actually innocent.” Hodges v. Colson, 727 F.3d 517, 530
(6th Cir. 2013) (citing Murray v. Carrier, All U.S. 478, 495-96, 106 S. Ct. 2639, 91 L. Ed. 2d
397 (1986)).

17

Case: l:17-cv-00860-SL Doc #: 20 Filed: 02/12/19 18 of 33. PagelD #: 1167

C.

Merits Review - Sufficiency of Evidence

The Due Process Clause of the Fourteenth Amendment requires a state to prove every
element of a crime beyond a reasonable doubt. Jackson v. Virginia, 443 U.S. 307, 315-16
(1979). A habeas court must determine “whether, after viewing the evidence in the light most
favorable to the prosecution, any rational trier of fact could have found the essential elements of
the crime beyond a reasonable doubt.” Id. at 319 (emphasis in original). “[T]he Jackson inquiry
does not focus on whether the trier of fact made the correct guilt or innocence determination, but
rather whether it made a rational decision to convict or acquit.” Herrera v. Collins, 506 U.S. 390,
402(1993).
Because both Jackson and AEDPA apply to a petitioner’s evidence sufficiency claim,
federal habeas review requires deference at two levels. ‘“First, deference should be given to the
trier-of-fact’s verdict, as contemplated by Jackson-, second, deference should be given to the
[state court’s] consideration of the trier-of-fact’s verdict, as dictated by AEDPA.’” Davis v.
Lafler, 658 F.3d 525, 531 (6th Cir. 2011) (quoting Tucker v. Palmer, 541 F.3d 652, 656 (6th Cir.
2008)). The Sixth Circuit has explained:
When reviewing whether the state court’s determination was “objectively
unreasonable,” this court necessarily engages in a two-step analysis. First, we
must ask whether the evidence itself was sufficient to convict under Jackson. The
inquiry ends if the panel determines that there was sufficient evidence to convict
[the petitioner]. If we find that the evidence is insufficient to convict, we must
then apply AEDPA deference and ask whether the state court was “objectively
unreasonable” in concluding that a rational trier of fact could find [the petitioner]
guilty beyond a reasonable doubt.
Stewart v. Wolfenbarger, 595 F.3d 647, 653 (6th Cir. 2010). The Sixth Circuit has observed that
“‘[a] defendant who challenges the sufficiency of the evidence to sustain his conviction faces a
nearly insurmountable hurdle.’” Davis, 658 F.3d at 534 (quoting United States v. Oros, 578 F.3d
703, 710 (7th Cir. 2009)).
18

Case: l:17-cv-00860-SL Doc#: 20 Filed: 02/12/19 19 of 33. PagelD#:1168

V.

Discussion
A.

Summary of Farmer’s Claims

Farmer’s Ground One claim for relief - questioning whether the railroad policeman
James Kirk met the definition of a “law enforcement officer” under Ohio law - was raised in
state court and reviewed on the merits. Respondent concedes as much. ECF Doc. 15, Page ID#
339. Thus, this court may review the claim on the merits in order to determine whether Farmer’s
federal constitutional rights have been violated.
Farmer’s Ground Two claim for relief - predicated on his contention that the State
violated the rule of Brady v. Maryland by withholding James Kirk’s body camera video evidence
- was not reviewed on the merits by the Ohio Court of Appeals, although Farmer was aware of
and made arguments concerning that issue during his trial. Respondent argues this claim may
not be reviewed in a federal habeas case because it was procedurally defaulted.
Farmer’s Ground Three claim for relief - predicated on his contention that the trial court
violated his due process rights by considering his history of juvenile criminal adjudications - was
not reviewed on the merits by the Ohio Court of Appeals, although Farmer raised the issue in the
trial court and the trial court ruled on Farmer’s motion. Respondent contends this ground too
was procedurally defaulted.
B.

Merits Evaluation of Ground One

The essence of Farmer’s Ground One claim is that a Norfolk & Southern Officer Kirk
was not a law enforcement officer as defined by Ohio law. Farmer asserts that if Kirk was not a
law enforcement officer, then the State failed to produce sufficient evidence to prove Counts
One, Four and Five of the indictment, each of which included the term “law enforcement officer”

19

Case: l:17-cv-00860-SL Doc#: 20 Filed: 02/12/19 20 of 33. PagelD#:1169

as an element of the offense. As such, Farmer’s claim is more a challenge to how the Ohio
Courts interpreted Ohio law than it is to the sufficiency of the evidence admitted at trial.
The starting point of the court’s analysis is the state court of appeals decision. Under
AEDPA, it is that decision which must be analyzed to determine whether it was contrary to, or
an unreasonable application of, clearly established federal law. For the following reasons, the
court cannot make that conclusion.
The Ohio Court of Appeals determined, as a matter of Ohio law, that railroad police
officer James Kirk, under the evidence presented, met the definition of a law enforcement officer
as defined in the Ohio Revised Code:
(If 13} R.C. 2901.01(A)(11) defines a “law enforcement officer” in relevant part as
follows:
(b) An officer, agent, or employee of the state or any of its agencies,
instrumentalities, or political subdivisions, upon whom, by statute, a duty to
conserve the peace or to enforce all or certain laws is imposed and the authority
to arrest violators is conferred, within the limits of that statutory duty and
authority.
The testimony in this case established that Officer Kirk is “a certified police officer
under the State of Ohio, and * * * commissioned through the State of Ohio with the
Norfolk Southern Railroad Police Department.” Pursuant to R.C. 4973.17(B),
railroad police officers may be commissioned by the secretary of state “to act as
police officers for and on the premise of the railroad company, its affiliates or
subsidiaries, or elsewhere, when directly in the discharge of their duties.” These
officers must successfully complete a training program approved by the Ohio peace
officer training commission and be certified by the commission. Railroad police
officers commissioned under R.C. 4973.17(B) “shall severally possess and exercise
the powers of, and be subject to the liabilities of, municipal policemen while
discharging the duties for which they are appointed.” R.C. 4973.18. Additionally,
these officers have a statutory duty to “enforce and compel obedience” of lawful
regulations promulgated by their employer. R.C. 4973.19.
{If 14} When determining whether officers commissioned under prior versions of the
R.C. 4973.17 are law enforcement officers, the Ohio Supreme Court has found that
“duly commissioned law enforcement officers who are hired and directed in their
specific duties by a private [entity] are public officers deriving their authority from
20

Case: l:17-cv-00860-SL Doc#: 20 Filed: 02/12/19 21 of 33. PagelD#:1170

the sovereign[.]” Ayers v. Woodard, 166 Ohio St. 138, 143, 140 N.E.2d 401 (1957).
Their acts are presumed to have been performed in their official capacity absent
evidence to the contrary. Id.; see also New York, C. & St. L. R. Co. v. Fieback, 87
Ohio St. 254, 265, 266, 100 N.E. 889, 10 Ohio L. Rep. 536 (1912) (recognizing a
duly commissioned railroad police officer is presumed to act in conformity with his
official duties).
{^f 15} In State v. Hughes, 1st Dist. Hamilton No. C-070755, 2008-Ohio-3966,
syllabus, the court found that “[a] police officer working for a conglomerate of
hospitals on hospital grounds was a state actor when he was commissioned under
R.C. 4973.17 and endowed with plenary police powers, including the power to
arrest.” The court also found that the officer was acting as a “de facto police officer”
when he arrested the defendant for criminal trespassing. Id. at 19.
{f 16} In State v. Bryant, 9th Dist. Summit No. 17618, 1996 Ohio App. LEXIS 5819
(Dec. 26, 1996), the court found that a bank fraud investigator commissioned under
R.C. 4973.17 was a “law enforcement officer” within the meaning of Crim. R. 41.
The court recognized that “R.C. 4973.18 confers all the powers of a municipal police
officer upon [the investigator] so long as these powers are exercised while she is
discharging her duties as a bank fraud investigator.” Id.
{^[ 17} Similar to the officers in Hughes and Bryant, Officer Kirk is a commissioned
police officer pursuant to R.C. 4973.17 and was acting in his official capacity when
he apprehended appellant in this case. We hold that he is a law enforcement officer
within the meaning of R.C. 2901.01(A)(11).
{| 18} After viewing the evidence in a light most favorable to the prosecution, we
find any rational trier of fact could have found the essential elements of the crime
proven beyond a reasonable doubt. Appellant’s first and second assignments of error
are overruled.
State v. Farmer 2015-Ohio-4676, 2015 Ohio App. LEXIS 4573 (Ohio Eighth Dist. App.,
.*

-

*

, •

*

>

November 10, 2015).
It is important to stress at the outset, that this court lacks the power to reach its own
conclusion about what the term “law enforcement officer” means under Ohio law. In other
words, this court is bound by Ohio’s interpretation of its own statutes, and there is generally no
federal constitutional issue posed by such interpretations, even if they are interpretations that this
court or other courts might decide differently. See Warner v. Zent, 997 F.3d 116, 133 (6th Cir.

21

Case: l:17-cv-00860-SL Doc #: 20 Filed: 02/12/19 22 of 33. PagelD #: 1171

1993) (“On habeas review, we are bound by state court interpretations of state criminal law
except in extreme circumstances where it appears that the interpretation is an obvious subterfuge
to evade consideration of a federal issue.”) Further, “[a] state is free within extremely broad
limits to decide upon the elements of a crime.” Eaglin v. Welborn, 57 F.3d 496, 500 (7th Cir.
1995). And it should be noted that although Farmer presents a sufficiency of the evidence
argument based on the contention that James Kirk was not a law enforcement officer as defined
by Ohio law, he does not argue that Ohio was prevented by the federal constitution from defining
“law enforcement officer” to include people like James Kirk who worked as a police officer for a
railroad.
Unfortunately for Farmer, the posture of this case precludes any federal habeas corpus
relief on his first ground for relief. As the Ohio Court of Appeals defined “law enforcement
officer” - that is, a commissioned police officer pursuant to Ohio Rev. Code § 4973.17 who was
acting in his official capacity - there was enough evidence to show that Kirk met that definition.
Even if there were not, for this court to grant relief, we would have to find that the state appellate
court unreasonably determined that the evidence was sufficient to meet its definition of a law
enforcement officer. However, under AEDPA and other applicable law, the deference due to
state courts on this issue is essentially two levels of deference, one for the jury’s decision and the
second for the appellate court’s decision. See Brown v. Konteh, 567 F.3d 191, 205 (6th Cir. ■
2009). Given that deference, we are required to conclude that both a reasonable jury and a
reasonable state court could have found that the evidence presented - more fully described in the
recital of facts from the state appeals court’s decision - was sufficient; that is, as that court said,
“we find any rational trier of fact could have found the essential elements of the crime proven

22

Case: l:17-cv-00860-SL Doc#: 20 Filed: 02/12/19 23 of 33. PagelD#:1172

beyond a reasonable doubt.” State v. Farmer 2015-Ohio-4676, 2015 Ohio App. LEXIS 4573, *
18.
The Ohio Court of Appeals applied the evidence-sufficiency standard of State v. Jenks,
61 Ohio St.3d 259, 574 N.E.2d 492 (1991), which is the Ohio analogue to Jackson v. Virginia.
Thus, the correct legal standard was identified and applied. The Ohio Court of Appeals
determined, as a matter of law, that after viewing the evidence in a light most favorable to the
prosecution, a rational trier of fact could have found the essential elements of the crimes charged
in Counts One, Four and Five were proven beyond a reasonable doubt. It is both to this
conclusion and the Ohio Court of Appeals conclusion on the definition of law enforcement
officer under Ohio law to which AEDPA deference must be applied. Consequently, Ground One
lacks merit. Farmer has not shown that the court of appeals definition of the term law
enforcement officer was adopted as a subterfuge to avoid federal court review.
Because Farmer’s Ground One claim lacks merit, I recommend that the court DISMISS
the claim.
C.

Ground Two - Procedural Default

Farmer’s Ground Two claim alleges that the state court trial prosecutor withheld evidence
consisting of body camera video recordings made by railroad police officer James Kirk, in
violation the rule established in Brady v. Maryland? Warden Bracy argues this claim was
procedurally defaulted because Farmer did not raise it on direct appeal despite his awareness of
the issue at the time of the direct appeal. The warden contends the Ohio courts enforced the rule
of res judicata, which precludes later review of an issue that could have been raised in an earlier
proceeding.

9 The testimony at trial was that no video recordings were retrievable due to damage to the recorder that
occurred during the incident with Farmer.
23

Case: l:17-cv-00860-SL Doc#: 20 Filed: 02/12/19 24 of 33. PagelD#:1173

Farmer raised the issue of the body camera video evidence at trial but then failed to
pursue that matter through direct appeal to either the Ohio Court of Appeals or the Ohio Supreme
Court. Because Farmer failed to fairly present and obtain review of his Brady claim through
Ohio’s ordinary appeal process, he may not obtain review of the issue as a part of his habeas case
unless he can show cause and prejudice. Because he cannot, the claim has been procedurally
defaulted.
As outlined above, before seeking habeas relief, a state prisoner must exhaust available
state remedies by fairly presenting all claims to the state courts. 28 U.S.C. § 2254(b). To “give
the state courts one full opportunity to resolve any constitutional issues” state prisoners must
invoke “one complete round of the State’s established appellate review process.” Williams v.
Bagley, 380 F.3d 932, 967 (6th Cir. 2004) (quoting O'Sullivan v. Boerckel, 526 U.S. 838, 845,
119 S. Ct. 1728, 144 L. Ed. 2d 1 (1999)). This generally means a prisoner must raise a
constitutional claim on direct review, see Id., and appeal any adverse decision to the “highest
court in the state in which [he] was convicted.” Caver v. Straub, 349 F.3d 340, 345 (6th Cir.
2003). The burden is on the petitioner to prove that he has exhausted these remedies. Id. The
failure to exhaust is considered a procedural default when “the court to which the petitioner
would be required to present his claims in order to meet the exhaustion requirement would now
find the claims procedurally barred.” Coleman v. -Thompson, 501 U.S. 722, 735 n.l, 111 S. Ct.
2546, 115 L. Ed. 2d 640 (1991). Farmer cannot meet his burden. He did not raise his Brady
claim on direct review. Thus, he did not give the Ohio courts a full opportunity to redress his
constitutional grievance.
Farmer did attempt to address his Brady claim in a petition to vacate or set aside his
conviction of sentence, filed on October 19, 2015. But that did not fulfill the requirement that he

24

Case: l:17-cv-00860-SL Doc#: 20 Filed: 02/12/19 25 of 33. PagelD#:1174

present the claim in his direct appeal as a part of Ohio’s ordinary review process. The trial court
reached the same conclusion in its April 13, 2016 order denying the petition on res judicata
grounds because the Brady claim was not raised on direct appeal. Farmer filed a notice of appeal
concerning that decision on May 6, 2016. But he never filed a brief in support of that appeal,
causing the Ohio Court of Appeals to dismiss the appeal sua sponte on September 6, 2016 under
Ohio Appellate Rule 18(C) for want of an appellate brief.10 Thus, between not raising the Brady
claim in direct appeal and being refused the attempt to raise it via post-conviction proceedings,
the record is quite clear that the Ohio Court of Appeals and the Supreme Court of Ohio were
never given the opportunity to correct the alleged error arising from the “withholding” of the
body camera evidence from railroad policeman James Kirk.
“[When] ‘a state prisoner has defaulted his federal claims in state court pursuant to an
independent and adequate state procedural rule, federal habeas review of the claims is barred
unless the prisoner can demonstrate [1] cause for the default and [2] actual prejudice as a result
of the alleged violation of federal law, or demonstrate that failure to consider the claims will
result in a fundamental miscarriage ofjustice.’ Combs v. Coyle, 205 F.3d 269, 274 (quoting
Coleman, 501 U.S. at 750).” Freeman v. Moore, 303 F. App’x 285, 289 (6th Cir. 2008).
Farmer has not asserted that something external to the defense prevented him from
including his Brady claim in his direct appeal; and, even if his post-conviction petition was
deemed to be a substitute for the direct appeal, Farmer has offered no explanation for why he

10 Inexplicably, the trial court issued a second order - on June 7, 2016 - denying the post-conviction
petition on the merits. This triggered an avalanche of subsequent trial and appellate court filings in which
Farmer sought a single final appealable order, was denied such by the trial court in a July 25, 2016 order
(which stated that the June 7, 2016 order was a final appealable order). Farmer appealed that ruling, but
his appeal was dismissed sua sponte for lack ofa final appealable order. Undaunted, Farmer filed a
second motion for a final appealable order on October 7, 2016 but the trial court denied that relief on
October 31, 2016. This saga is detailed on pages 5-7, supra.

25

Case: l:17-cv-00860-SL Doc#: 20 Filed: 02/12/19 26 of 33. PagelD#:1175

failed to file an appellate brief in his appeal of the trial court’s April 13, 2016 order denying his
petition. Thus, his failure to comply with the Ohio law of res judicata and his failure to comply
with Ohio’s appellate rules provided independent and adequate state-law grounds upon which the
Ohio courts declined to review the Brady claim. Moreover, Farmer has not shown prejudice
from the failure to have that claim reviewed. He has not presented anything other than his
surmise that the video camera was actually functional (there was evidence to the contrary) or that
any recording of the events at issue would have proven to be exculpatory. Finally, this is not the
rare case in which the court should overlook the procedural default to prevent the manifest
injustice that would arise from knowing that someone who was actually innocent had been
convicted. Farmer has presented no new, reliable evidence to show that he was not guilty of the
crimes of which he was convicted.
Ground Two should be dismissed on the ground that it was procedurally defaulted.
D.

Ground Three - Procedural Default

Farmer’s Ground Three claim for relief presents a due process challenge to the initial
sentence imposed by the trial court. In short, he asserts that the trial judge violated his
constitutional rights by taking his juvenile criminal history into consideration when determining
the sentence to impose in this case. He alleges that the manner in which sentence was imposed
violated the rule established by the Ohio Supreme Court in State v. Hand, 149 Ohio St.3d 94,
2016-0hio-5504; 2016 Ohio LEXIS 2106, which adopted as Ohio law the principles announced
by the United States Supreme Court in Apprendi v. New Jersey, 530 U.S. 466, 120 S.Ct. 2348,
147 L.Ed.2d 435 (2000), and Alleyne v. United States, 570 U.S. 99, 133 S.Ct. 2151, 186 L.Ed.2d
314 (2013). Respondent contends the issue Farmer raises involves only an evaluation of Ohio
sentencing law and presents no federal law question at all, thereby making it not cognizable in a

26

Case: l:17-cv-00860-SL Doc#: 20 Filed: 02/12/19 27 of 33. PagelD#:1176

federal habeas case. Respondent also contends Farmer procedurally defaulted the claim by not
presenting this issue on direct appeal after he was resentenced on January 24, 201711.
Respondent is correct in part. Farmer failed to perfect a proper direct review appeal on this issue
after the trial court denied his motion for resentencing and offers no argument that his default
was caused by something he could not control or that he has suffered prejudice.
After the Ohio Court of Appeals remanded Farmer’s original appeal so that he could be
resentenced, Farmer filed a “motion for resentencing” on January 5, 2017. ECF Doc. 5-1, Ex.
36, Page ID# 244. The motion asserted for the first time the same claim presented in Farmer’s
Ground Three claim. In essence, he asserted that the 2016 rule announced in State v. Hand
provided a new ground for relief from the trial court’s determination to impose consecutive
sentences at the time it originally sentenced Farmer on December 29, 2014.
Initially, I note this claim could have been but was not presented on direct appeal.
Although State v. Hand was decided in 2016 - arguably explaining why Farmer didn’t raise this
issue until after Hand was decided - the federal constitutional law upon which it was founded
(the U. S. Supreme Court decisions in Apprendi v. New Jersey, 530 U.S. 466, 120 S.Ct. 2348,
147 L.Ed.2d 435 (2000), and Alleyne v. United States, 570 U.S. 99, 133 S.Ct. 2151, 186 L.Ed.2d
314 (2013)) were established precedent by the time of-Farmer’s 2015 direct appeal. Respondent
does not argue procedural default on this basis, however. Instead, the warden argues that Farmer
never obtained review of the merits of his Ground Three claim in the Ohio Court of Appeals or
Ohio Supreme Court after the trial court denied the motion for resentencing.
As with other parts of Farmer’s state court history, the multiplicity of filings makes it
difficult to keep clear what was being appealed when. Although the details of the case history

11 The journal entry of the sentencing was filed on January 25, 2017. ECF Doc. 5-1
27

Case: l:17-cv-00860-SL Doc#: 20 Filed: 02/12/19 28 of 33. PagelD#:1177

are cited above, the following bullet points will sharpen the focus on the issue raised in Ground
Three:
•

On November 12, 2015 Farmer’s direct review appellate decision is issued by the
Ohio Court of Appeals. The case was remanded for resentencing on the Count
Two assault charge “only.” ECF Doc. 5-1, Ex. 9, Page ID# 116.

•

On August 25, 2016 the Ohio Supreme Court decided State v. Hand.

•

On January 5, 2017 Farmer filed his motion for resentencing in the trial court,
arguing his due process rights were violated when the trial court in its original
sentence considered his juvenile record, in violation of Hand. ECF Doc. 5-1, Ex.
37, Page ID# 244.

•

On January 24, 2017 the trial court imposed a new sentence on the Count Two
assault charge (only) pursuant to the remand order by the court of appeals. The
journal entry was filed on January 25, 2017. ECF Doc. 5-1, Ex. 14, Page ID#
143.

•

On January 25, 2017, the trial court issued a journal entry denying Farmer’s
motion for resentencing. ECF Doc. 5-1, Ex. 37, Page ID# 248.

•

On August 11, 2017, Farmer, asserting he’d never been properly served with the
January 25 entry denying the motion for resentencing, moved for proper notice of
the entry. The trial court granted the motion on August 17, 2017. ECF Doc. 151, Exs. 38, 39, Page ID# 354, 361.

•

On September 19, 2019 Farmer filed a notice of appeal (COA No. 106280) from
the January 25, 2017 order denying his motion for resentencing. ECF Doc. 15-1,
Ex. 40, Page ID# 362.

•

On September 27,2017 COA 106280 was dismissed sua sponte because
Farmer failed to file a praecipe in accordance with Local App. R. 9(B). ECF
Doc. 15-1, Ex. 41, Page ID# 367.

•

On October 13, 2017 Farmer filed a new notice of appeal concerning the January
25, 2017 order denying his resentencing motion (COA No. 106370). ECF Doc.
15-1, Ex. 42, Page ID# 368.

•

On October 13, 2017 Farmer also filed a motion for leave to file delayed appeal
with respect to the notice of appeal filed on the same date (COA No. 106370).
ECF Doc. 15-1, Ex. 43, Page ID# 382.

•

On October 19, 2017, the Ohio Court of Appeals issued two journal entries: (i)
denying Farmer’s motion for leave to file delayed appeal, and (ii) dismissing
28

Case: l:17-cv-00860-SL Doc#: 20 Filed: 02/12/19 29 of 33. PagelD#:1178

COA No. 106370 pursuant to the denial of the delayed appeal request. ECF Doc.
15-1, Exs. 43, 44, Page ID# 385, 386. '
•

On November 3, 2017 Farmer filed a motion for reconsideration of the denial of
his motion for leave to file a delayed appeal. ECF Doc. 15-1, Ex. 46, Page ID#
387

•

On November 7, 2017 the Ohio Court of Appeals denied Farmer’s motion for
reconsideration. ECF Doc. 15-1, Ex.

•

On December 11, 2017 Farmer sought Ohio Supreme Court review of the October
19 and November 3 court of appeals orders. The Supreme Court declined review
on April 25, 2018. ECF Doc. 15-1, Exs. 48, 51, Page ID# 392, 407.

This record of events shows that Farmer never obtained Ohio Court of Appeals or Ohio
Supreme Court review of his Ground Three due process claim. Moreover, it is also apparent that
Farmer never pursued an appeal of the trial court’s January 25, resentencing order.12 Only the
activities relating to Farmer’s effort to obtain review of the order denying his motion for
resentencing - the motion which asserted the same argument he now asserts in Ground Three
are pertinent.
This set of circumstances requires this court to apply the Sixth Circuit test of Maupin v.
Smith, 785 F.2d 135 (6th Cir. 1986), to determine whether Farmer’s Ground Three claim is
barred by the failure to observe a state procedural rule. First, we must determine whether there
exists a state procedural rule with which the petitioner failed to comply. Then the court must
determine whether the state court enforced a sanction for failure to comply. If so, it must then be
decided whether failure to comply with the state procedural rule constitutes an adequate and

12 Unlike respondent, I conclude the failure to appeal the January 2017 imposition of a new sentence on
Count Two following remand from the state appellate court is not significant in the evaluation of
Farmer’s habeas petition. The only issue addressed by the trial court on that occasion was the imposition
of a six-month sentence on Count Two once it was reduced from a felony assault on a peace officer
charge to a simple misdemeanor assault charge. Nothing in the trial court’s resentencing entry indicates it
re-evaluated or re-imposed sentences on the other charges of which Farmer had been convicted. It is the
imposition of consecutive sentences on those charges and the trial court’s alleged consideration of
Farmer’s juvenile record about which he complains in Ground Three.

29

Case: l:17-cv-00860-SL Doc#: 20 Filed: 02/12/19 30 of 33. PagelD#:1179

independent ground for barring federal review. If all these questions are answered in the
affirmative, default exists, and the petitioner must satisfy the “cause and prejudice” analysis set
forth in Wainwright v. Sykes, 433 U.S. 72, 90-91, 97 S. Ct. 2497, 53 L. Ed. 2d 594 (1977), to
excuse the default.
First, the Ohio Court of Appeals dismissed Farmer’s appeal of the January 25, 2017 .
because Farmer failed to file a praecipe. ECF Doc. 15-1, Ex. 41, Page ID# 367. The dismissal
of the appeal reflected the court’s imposition of a sanction for Farmer’s failure to comply with a
procedural rule - Local Appellate Rule 9(B). In doing so, albeit in a single sentence, the court
expressed no reliance upon federal law. “Failure to comply with written procedural rules
detailing the timing and filing of appellate documents has been adjudged a bar to federal habeas
review when the rules of appellate procedure are well-established and regularly followed, i.e.
adequate and independent state procedural rules.” Marshall v. Brunsman, No. 1:09cv0259,
2010 U.S. Dist. LEXIS 140202, at *21-22; 2010 WL 5627660 (N.D. Ohio December 3, 2010,
Pearson, MJ)13, citing, Shroyer v. Moore, No. C-l-05-797, 2007 U.S. Dist. LEXIS 63811, 2007
WL 2492312 (S.D. Ohio Aug. 29, 2007)(“In so ruling, the court clearly and expressly relied on
both an independent and adequate State ground stemming from petitioner’s noncompliance with
the court’s well established and regularly-followed written procedural rules governing the timing
and filing of the requisite appeal documents.”)r •
Because all of the first three parts of the Maupin test are answered in the affirmative, the
burden falls upon Farmer to show cause and prejudice in order to overcome his procedural
default. He has not attempted to argue or show that some factor external to the defense caused
his failure not to file a praecipe. Thus, he cannot meet the cause requirement. And he has not

13 Accepted by, adopted by, Pet. for writ of habeas corpus dismissed by, Marshall v. Brunsman, 2011
U.S. Dist. LEXIS 5835 (N.D. Ohio Jan 21, 2011)
30

Case: l:17-cv-00860-SL Doc#: 20 Filed: 02/12/19 31 of 33. PagelD#:1180

met the prejudice requirement. As noted above, the main argument Farmer advances concerning
his convictions is not that he didn’t have an incident with James Kirk, but that Kirk cannot be
considered a law enforcement officer. There was ample evidence to support Farmer’s
convictions and the trial court’s sentence was not challenged on direct appeal (apart from the
issues on which Farmer prevailed). Thus, he has not been prejudiced by the Ohio Court of
Appeals’ failure to consider his Ground Three claim on the merits.
Finally, this is not the rare case in which the court should overlook the procedural default
to prevent the manifest injustice that would arise from knowing that someone who was actually
innocent had been convicted. Farmer does not even argue that he is actually innocent in Ground
Three. Rather, he argues that the trial court erred in sentencing him.
Farmer’s Ground Three claim should be dismissed because it was procedurally defaulted.
The respondent also contends that Ground Three raises only a non-cognizable state law claim.
Given the finding that the claim has been procedurally defaulted, it is unnecessary to reach a
conclusion on its cognizability.14
VI.

Recommendation Regarding Certificate of Appealability
A.

Legal Standard

As amended by the Antiterrorism and Effective Death Penalty Act, 28 U.S.C.
§ 2253(c)(1) provides that a petitioner may not appeal a denial of an application for a writ of .
habeas corpus unless a judge issues a certificate of appealability. The statute further provides
that “[a] certificate of appealability may issue ... only if the applicant has made a substantial
showing of the denial of a constitutional right.” 28 U.S.C. § 2253(c)(2).

14 This issue is not as clear as respondent asserts. Because Ground Three is predicated on State v. Hand,
and because that case directly relied on the United States Supreme Court decisions in Apprendi and
Alleyne cited above, an argument could be made that Farmer raised a federal constitutional issue by virtue
of the state court’s contended violation of the principles announced in those Supreme Court cases.
31

Case: l:17-cv-00860-SL Doc#: 20 Filed: 02/12/19 32 of 33. PagelD#:1181

Although the statute does not define what constitutes a “substantial showing” of a denial
of a constitutional right, the burden on the petitioner is obviously less than the burden for
establishing entitlement to the writ; otherwise, a certificate could never issue. Rather, the courts
that have considered the issue have concluded that

[a] substantial showing requires the

applicant to “demonstrate that the issues are debatable among jurists of reason; that a court could
resolve the issues (in a different manner); or that the questions are adequate to deserve
encouragement to proceed further.

55655

Hicks v. Johnson, 186 F.3d 634, 636 (5th Cir. 1999)

(quoting Drinkard v. Johnson, 97 F.3d 751, 755 (5th Cir. 1996)(quoting Barefoot v. Estelle, 463
U.S. 880, 893, n. 4 (1983)); accord Slack v. McDaniel, 529 U.S. 473, 483-484 (2000). The
statute requires that certificates of appealability specify which issues are appealable. 28 U.S.C. §
2253(c)(3).
Rule 11 of the Rules Governing Section 2254 Cases in the United States District Courts,
28 U.S.C. foil. § 2254, provides that “[t]he district court must issue or deny a certificate of
appealability when it enters a final order adverse to the applicant.” Rule 11(a), 28 U.S.C. foil. §
2254. The rule tracks the requirement of § 2253(c)(3) that any grant of a certificate of
appealability “state the specific issue or issues that satisfy the showing required by §
2253(c)(2),” Rule 11 (a). In light of the Rule 11 requirement that the Court either grant or deny
the certificate of appealability at the time of its final adverse order, a recommendation regarding
the certificate of appealability issue is included here.
B. Analysis
The resolution of the Farmer’s s Ground One claim for relief on the ground that it lacks
merit cannot reasonably be debated. Likewise, the conclusion that Farmer procedurally

32

{

Case: l:17-cv-00860-SL Doc#: 20 Filed: 02/12/19 33 of 33. PagelD#:1182

defaulted his Ground Two and Ground Three claims for relief cannot reasonably be debated.
Thus, I recommend that a certificate of appealability be denied.
VII.

Recommendations
Because Fanner’s Ground One claim lacks merit, I recommend that it be dismissed.

Because Farmer’s Ground Two and Ground Three claims have been procedurally defaulted, I
recommend they be dismissed. If the Court accepts these recommendations, I further
recommend that the Court deny Fanner’s petition for writ of habeas corpus under 28 U.S.C. §
2254. I further recommend that Farmer not be granted a certificate of appealability.

Dated: February 12, 2019
United StatesMagtstrate Judge

OBJECTIONS
Any objections to this Report and Recommendation must be filed with the Clerk of Courts
within fourteen (14) days after being served with a copy of this document. Failure to file
objections within the specified time may waive the right to appeal the District Court’s order. See
U.S. v, Walters, 638 F.2d 947 (6th Cir. 1981). See also Thomas v. Am, 474 U.S. 140 (1985),
reh’g denied, 474 U.S. 1111 (1986).

33

